No.____________

In The
SUPREME COURT OF THE UNITED STATES
MARON PICTURES LTD.,
Petitioner,
v.
SAM EIGEN et al.,
Respondents,
On Petition for Writ of Certiorari to the California
Court of Appeal for the Second Appellate District
PETITION FOR WRIT OF CERTIORARI
MAZUR & MAZUR, LLC
Janice R. Mazur
(Counsel of Record)
S.B.N. 144611
13465 Camino Canada,
Suite 106, No. 103
El Cajon, California 92021
Telephone: 800-383-5002
email: appealslawyer@aol.com

QUESTIONS PRESENTED
1. How can any state court make conclusions in
relation to motion picture rights without
referring to the Copyright Act to make a
determination?
2. Pursuant to 17 U.S.C. §301(a), if all legal or
equitable rights that a plaintiff asserts under
rights that are equivalent
those protected within the general scope of
copyright as specified by section 106 then

3. How can the State of California stop a
Copyright Owner from receiving bi-annual
accounting and reporting as legally required
by Federal Copyright Law (17 U.S.C §119(b)),
and stop him receiving his royalties owed?
4. How can the State of California forfeit a
Copyright Owner of his rights pursuant to 17
U.S.C. 106, thus stopping him from exploiting
his copyright protected work in the remaining
global territories pursuant to 17 U.S.C. 106(3),
which is constitutionally protected under The
Copyright Act of 1976 and under The Berne
Convention Implementation Act of 1988?

ii
5. If a c
infringes a
Copyright protected work as in this case, and
precedent cases across all Circuits make the
secondary infringer
if they "[k]n[e]w, or
ha[d] reason to know" of direct infringement,
then does this make the State of California
and/or the judges involved in the previous
hearings
ibutory Copyright

iii
PARTIES TO PROCEEDING
1. Maron Pictures Ltd., Plaintiff and Appellant;
2. Sam Eigen, Defendant and Respondent;
3. Mainsail LLC, Defendant and Respondent;
4. Shoreline Entertainment Inc., Defendant and
Respondent;

iv
COMPANY DISCLOSURE STATEMENT
Maron Pictures Ltd. has no parent company. Maron
Pictures Ltd. is owned by Mark Mahon, who is a sole
proprietor, administrator, sole beneficiary and the
only creditor of Maron Pictures Ltd. Mark Mahon is
also the sole owner and Copyright holder of the
the U.S. Copyright Office, registration no. PA 1-642297. Mark Mahon is also the registered Copyright
owner of the screenplay registered in the U.S.
Copyright Office, registration no. TXul-289-556.
fall under the protection of Title 17, United States
Code and of The Berne Convention Implementation
Act of 1988.

v
LIST OF PROCEEDINGS IN STATE COURT
(listed in descending order)

California Supreme Court, Case No. S254768, Maron
Pictures v. Eigen, Petition for Review & publication
request denied, 05/15/2019.
Second Appellate District, Case No. B280738, Maron
Pictures Ltd. v. Sam Eigen et al., Opinion filed,
Affirmed, 02/15/2019.
Los Angeles County Superior Court, Case No.
SC120432, Maron Pictures v. Sam Eigen et al., Order
granting Motion for Summary Judgment, 12/09/2016.
Los Angeles County Superior Court, Case No.
SC120432, Maron Pictures v. Sam Eigen et al., Order
granting Summary Adjudication in part, 02/10/2016.

vi
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED

...

i

. iii
COMPANY DISCLOSURE STATEMENT............... iv
. v
TABLE OF AUTHORITIES

... x

OPINION BELOW

... 1

JURISDICTION
INTERNATIONAL PROVISIONS, STATUTE
AND REGULATIONS AT ISSUE
STATEMENT OF
A. Facts Giving Rise To This Case
B. The Superior Court Proceedings

....... 1

.. 1
...... 8
... 8
13

C. The Appellate Court Proceedings................. 16
REASONS WHY CERTIORARI SHOULD BE
... 19

vii
I. THERE IS AN OBVIOUS CONFLICT OF
AUTHORITY IN THE QUESTIONS
PRESENTED
.... 19
A. The Decision Below Conflicts With
Previous Decisions On The First,
Second and Ninth Circuits

. 20

B. Federal Copyright Law and The Second,
Third, Fourth, Ninth and Tenth Circuits
Have Well Established Prece
. 24
II. THE DECISION MAKES THE SECOND
APPELLATE DISTRICT LIABLE FOR
CONTRIBUTORY COPYRIGHT
IN
. 30
A. The Second Appellate Dis
Is Contrary To 17 U.S.C. §

Decision
.... 30

B. The Second Appellate District Decision
Stops Petitioner Receiving
-Annual
Accounting and Reporting Contrary To
...... 36

viii
C. The Second Appellate
Decision
Forfeits Petitioner Of His Personal
Property, His Rights and Moral Rights,
Which Are Constitutionally Protected
Under The Copyright Act of 1976
Pursuant to International Provisions
As Legislated For By Congress Under
... 41
III. THE
RULING IS INCORRECT..

... 47
.. 49

ix
APPENDICES:
(listed in descending order)

Appendix A
Supreme Court of California Court Order,
Petition for Review and request for publication
of Opinion denied, S254768 (May 15, 2019) .
. 2a
Appendix B
Appellate Court Order, Petition for transfer
of appellate division case denied, B280738
(March 14, 2019
. 4a
Appendix C
Appellate Court Order, Petition to transfer
denied, B280738 (March 8,
...
......... 6a
Appendix D
Appellate Court
morandum, Recommendation
To Deny Request For Publication, B280738
(March 5,
...................... 8a
Appendix E
Appellate Court Order, Petition for rehearing
denied, B280738 (March 5,
.. 11a
Appendix F
Opinion of the Court of Appeal, Maron Pictures Ltd.
v. Eigen, B280738 (Cal. Ct. App. Feb. 15, 2019)... 13a
Appendix G
Judgment, Los Angeles County Superior Court,
SC120432 (Dec 9, 2016
.
7a
Appendix H
Summary Adjudication, Los Angeles County
Superior Court, SC120432 (Feb 10, 2016)
. 60a

x
TABLE OF AUTHORITIES
Page
CASES
Adobe Systems Incorporated v. Canus Productions,
Inc., 173 F. Supp. 2d 1044 (C.D. Cal. 2001)... 36, 48
Am. Movie Classic v. Turner Entertainment,
922 F. Supp. 926 (S.D.N.Y. 1996)
.
.... 28, 42
A M Records, Inc. v. Napster, Inc.,
239 F.3d 1004 (9th Cir. 2001)
. 31, 32, 44, 46
Apple Computer, Inc. v. Franklin Computer Corp.,
714 F.2d 1240 (3rd Cir. 1983)
..... 29, 30
Atari, Inc. v. North American Philips Consumer
Electronics Corp., 672 F.2d 607 (7th Cir. 1982)
39
Ballard v. MacCallum,
15 Cal. 2d 439 (Cal. 1940)
47
Brian Jonestown Massacre v. Davies, Case No.
13-cv-04005 NC, at 6 (N.D. Cal. Aug. 18, 2014)..... 39
Briarpatch Ltd. v. Phoenix Pictures, Inc.,
373 F.3d 296 (2d Cir. 2004)
........ 38
Cable/Home Comm. Corp. v. Network Prods., Inc.,
902 F.2d 829 (11th Cir. 1990)
..
. 31, 36, 48
Consol. Lumber Co. v. Frew,
32 Cal. App. 118 (Cal. Ct. App. 1916)
Disney Enters., Inc. v. VidAngel, Inc.,
224 F. Supp. 3d 957 (C.D. Cal. 2016)
.. 29
Daboub v. Gibbons,
42 F.3d 285 (5th Cir. 1995)
.. 28
Dodson v. Greuner,
28 Cal. App. 2d 418 (Cal. Ct. App. 1938)
35

xi
TABLE OF AUTHORITIES
(continued)
EHAT v. TANNER,
780 F.2d 876 (10th Cir. 1986)
24
Ellison v. Robertson,
357 F.3d 1072 (9th Cir. 2004)
........... 44
Folio Impressions, Inc. v. Byer California,
937 F.2d 759 (2d Cir. 1991)
. 25
Fonar Corp. v. Domenick,
105 F.3d 99 (2d Cir. 1997)
. 25, 26
Fonovisa, Inc. v. Cherry Auction, Inc.,
76 F.3d 259 (9th Cir. 1996)
30, 48
Goldberg v. Cameron,
482 F. Supp. 2d 1136 (N.D. Cal. 2007)
............ 24
Grosso v. Miramax Film Corp.,
.. 24
Gershwin Publishing Corp. v. Columbia Artists
Management, Inc.,
443 F.2d 1159 (2d Cir. 1971)
. ... ..... 30
Hamil Am. Inc. v. GFI,
193 F.3d 92 (2d Cir. 1999)
. 25, 28
Hasbro Bradley, Inc. v. Sparkle Toys, Inc.,
780 F.2d 189 (2d Cir. 1985)
............. 26
Holman v. Laulo-Rowe Agency,
994 F.2d 666 (9th Cir. 1993)
28
Kodadek v. MTV Networks, Inc.,
152 F.3d 1209 (9th Cir. 1998)
..
21, 24
448 F.3d 1134 (9th Cir. 2006)

.

.

. 21

xii
TABLE OF AUTHORITIES
(continued)
Matthew Bender Co. v. West Publ'g Co.,
158 F.3d 693 (2d Cir. 1998)
... 31, 46
Mayer v. Josiah Wedgwood and Sons, Ltd.,
601 F. Supp. 1523 (S.D.N.Y. 1985)
.. 22
Montz v. Pilgrim Films,
649 F.3d 975 (9th Cir. 2011)
21
Microsoft Corp. v. EEE Business Inc.,
555 F. Supp. 2d 1051 (N.D. Cal. 2008) ..
31
Miller v. Superior Court,
101 Cal. App. 4th 72
.. 36
Nguyen v. W. Digital Corp.,
229 Cal. App. 4th 1522 (Cal. Ct. App. 2014)
.... 40
Orson, Inc. v. Miramax Film Corp.,
189 F.3d
.. 45
Reed v. Reed,
128 Cal. App. 2d 786 (Cal. Ct. App. 1954)
. 35
Religious Tech. Ctr. v. Netcom On-Line
Communication Servs., Inc.,
907 F. Supp. 1361 (N.D.Cal. 1995)
. 36
Rosciszewski v. Arete Associates, Inc.,
1 F.3d 225 (4th Cir. 1993)
. 24
Santa-Rosa v. Combo Record,
471 F.3d 224 (1st Cir. 2006)
. 23
Scandinavian Satellite System, AS v. Prime TV
Ltd., 291 F.3d 83
.............. 27
Video Pipeline, Inc. v. Buena Vista Home Entert.,
Inc., 192 F. Supp. 2d 321 (D.
.. ..... 29

xiii
TABLE OF AUTHORITIES
(continued)
Urbont v. Sony Music Entm't,
831 F.3d 80 (2d Cir. 2016)
. 25
Warner Bros., Inc. v. Wilkinson,
533 F. Supp. 105 (D. Utah 1981)
.... 44, 45
Warner Bros. Entm't, Inc. v. WTV Sys.,
824 F.Supp.2d 1003 (C.D. Cal. 2011)
. ... 29
Whimsicality, Inc. v. Rubie's Costume Co., Inc.,
891 F.2d 452 (2d Cir. 1989)
.. ... 26
Worlds of Wonder v. Veritel Learning Sys.,
658 F. Supp. 351 (N.D. Tex. 1986)
. 30
Worth v. Universal Pictures, Inc.,
5 F. Supp. 2d 816
.... 27, 38, 39
Xerox Corp. v. Apple Computer, Inc.,
734 F. Supp. 15
........ 21, 22
X17, Inc. v. Lavandeira,
563 F. Supp. 2d 1102 (C.D. Cal. 2007)
.... 24
INTERNATIONAL PROVISIONS
The Berne Convention Implementation Act
of 1988
. 1, 31, 41, 43
STATUTES
17 U.S.C. § 101
1
17 U.S.C. § 106

. 7, 27
........ 2, 3, 5, 21, 22, 38
. 3, 5, 21, 38
3, 4, 5, 16, 20, 22, 24
27, 38, 44, 45, 46, 48

xiv
TABLE OF AUTHORITIES
(continued)
STATUTES
17 U.S.C. § 106A
17 U.S.C. § 119
17 U.S.C. § 122
17 U.S.C. § 2
17 U.S.C. § 501
17 U.S.C. § 502
17 U.S.C. § 506
28 U.S.C. § 1257
28 U.S.C. § 4001

... 4, 5, 16, 31, 43, 44, 45, 46, 48
. 4, 36, 38
.......... ........... 3, 4, 5, 16, 46, 48
................ 4, 44, 45, 47
.. 5, 20, 21, 23, 24, 38, 47
. 5, 16, 30, 46, 48
..........................16, 48
.......... 5, 6, 16, 46, 48
.. 1, 6
6, 23, 26
6, 45

California Civil Code § 1442
California Civil Code § 3513

7, 47
. 7, 23

CALIFORNIA RULES OF COURT
Rule 8.

7, 8, 17, 33

OTHER MATERIALS
Federal Civil Procedure Before Trial
2A-15 (1997)

........... 27

1 Nimmer on Copyright.

..

21

-1PETITION FOR WRIT OF CERTIORARI
Maron Pictures Ltd. petitions for a writ of certiorari
to review a decision in the Court of Appeal of the
State of California for the Second Appellate District.
OPINION BELOW
The decision of the Second Appellate District is
reported as Maron Pictures Ltd. v. Eigen, B280738
(Cal. Ct. App. Feb. 15, 2019). The court
is
ordered not to be published in the official reports.
The judges who acted on the appeal are Maria E.
Stratton, Tricia A. Bigelow and Elizabeth A. Grimes.
JURISDICTION
The Court of Appeal affirmed a judgment of the
Superior Court of Los Angeles County and entered
its decision on February 15, 2019. On March 5, 2019
it denied a timely filed petition for rehearing and
transfer to Federal jurisdiction. On May 15, 2019 the
Supreme Court of California denied a timely filed
petition for review and request for an order directing

§1257(a) having timely filed this petition for a writ of
certiorari within ninety days.
INTERNATIONAL PROVISIONS, STATUTES
AND REGULATIONS AT ISSUE
The Berne Convention Implementation Act of 1988
provides, in part:
Sec. 1 Short Title and References to Title 17, United States
Code.
(a) SHORT TITLE. This

-2Convention
(b) REFERENCES TO TITLE 17, UNITED STATES
CODE.
Whenever in this Act an amendment or repeal is expressed in
terms of an amendment to or a repeal of a section or other
provision, the reference shall be considered to be made to a
section or other provision of title 17, United States Code.
Sec. 2 Declarations.
The Congress makes the following declarations:
(2) The obligations of the United States under the Berne
Convention may be performed only pursuant to
appropriate domestic law.
(3) The amendments made by this Act, together with
the law as it exists on the date of the enactment of this
Act, satisfy the obligations of the United States in
adhering to the Berne Convention and no further rights
or interests shall be recognized or created for that
purpose.
Sec. 3
(b)(2) to object to any distortion, mutilation, or other
modification of, or other derogatory action in relation to, the
r reputation.

17 U.S.C. §102(a) provides:
Copyright protection subsists, in accordance with this
title, in original works of authorship fixed in any
tangible medium of expression, now know or later
developed, from which they can be perceived,
reproduced, or otherwise communicated, either directly
or with the aid of a machine or device. Works of
authorship include the following categories:
(1) literary works;
(2) musical works, including any
accompanying words;
(3) dramatic works, including any
accompanying music;

-3(4) pantomimes and choreographic works;
(5) pictorial pictures and other audiovisual
works;
(6) motion pictures and other audiovisual
works;
(7) sound recordings; and
(8) architectural works.

17 U.S.C. §103(a) provides:
The subject matter of copyright as specified by section
102 includes compilations and derivative works, but
protection for a work employing preexisting material in
which copyright subsists does not extend to any part of
the work in which such material has been used
unlawfully.

17 U.S.C. §106 provides:
Subject to sections 107 through 122, the owner of
copyright under this title has the exclusive rights to do
and to authorize any of the following:
(1) to reproduce the copyrighted works in copies
or phonorecords;
(2) to prepare derivative works based upon the
copyrighted work;
(3) to distribute copies or phonorecords of the
copyrighted work to the public by sale or
other transfer of ownership, or by rental,
lease, or lending;
(4) in the case of literary, musical, dramatic,
and choreographic works, pantomimes, and
motion pictures and other audiovisual
works, to perform the copyrighted work
publicly;
(5) in the case of literary, musical, dramatic,
and choreographic works, pantomimes, and
pictorial, graphic, or sculptural works,
including the individual images of a motion

-4picture or other audiovisual work, to display
the copyrighted work publicly; and
(6) in the case of sound recordings, to perform
the copyrighted work publicly by means of a
digital audio transmission.

17 U.S.C. §106A(a)(3)(A) provides:
[T]o prevent any intentional distortion, mutilation, or
other modification of that work which would be
prejudicial to his or her honor or reputation, and any
intentional distortion, mutilation, or modification of
that work is a violation of that right, and

17 U.S.C. §106A(a)(3)(B) provides:
[T]o prevent any destruction of a work of recognized
stature, and any intentional or grossly negligent
destruction of that work is a violation of that right.

17 U.S.C. §106A(b) provides, in part:
Scope and Exercise of Rights.- Only the author of a
work of visual art has the rights conferred by subsection
(a) in the work[.]

17 U.S.C. § 119 (b)(1)(A) provides, in part:
[A] statement of account, covering the preceding 6month period[.]

17 U.S.C. § 119 (b)(1)(B) provides, in part:
[A] royalty fee payable to copyright owners pursuant to
paragraph (4) for that 6-month period[.]

17 U.S.C. § 122 (a)(1)(C)(ii) provides:
[A] distributor that has contracted with the satellite
carrier for direct or indirect delivery of the secondary
transmission to the public.

17 U.S.C. § 201(d) provides:
(1) The ownership of a copyright may be transferred in
whole or in part by any means of conveyance or by
operation of law, and may be bequeathed by will or pass

-5as personal property by the applicable laws of intestate
succession.
(2) Any of the exclusive rights comprised in a copyright,
including any subdivision of any of the rights specified
by section 106, may be transferred as provided by clause
(1) and owned separately. The owner of any particular
exclusive right is entitled, to the extent of that right, to
all of the protection and remedies accorded to the
copyright owner by this title.

17 U.S.C. § 301(a) provides:
(a) On and after January 1, 1978, all legal or equitable
rights that are equivalent to any of the exclusive rights
within the general scope of copyright as specified by
section 106 in works of authorship that are fixed in a
tangible medium of expression and come within the
subject matter of copyright as specified by sections 102
and 103, whether created before or after that date and
whether published or unpublished, are governed
exclusively by this title. Thereafter, no person is
entitled to any such right or equivalent right in any
such work under the common law or statutes of any
State.

17 U.S.C. § 501 (a) provides:
Anyone who violates any of the exclusive rights of the
copyright owner as provided by sections 106 through
is an infringer of the copyright or right of the author, as
the case may be. For purposes of this chapter (other
than section 506), any reference to copyright shall be
deemed to include the rights conferred by section
106A(a). As used in this subsection, the term
includes any State, any instrumentality of a State, and
any officer or employee of a State or instrumentality of
a State acting in his or her official capacity. Any State,
and any such instrumentality, officer, or employee, shall

-6be subject to the provisions of this title in the same
manner and to the same extent as any
nongovernmental entity.

17 U.S.C. § 506 (a)(1)(B) provides:
[B]y the reproduction or distribution, including by
electronic means, during any 180 day period, of 1 or
more copies or phonorecords of 1 or more copyrighted
works, which have a total retail value of more than
$1,000;

28 U.S.C. § 1257(a) provides:
(a) Final judgments or decrees rendered by the highest
court of a State in which a decision could be had, may
be reviewed by the Supreme Court by writ of certiorari
where the validity of a treaty or statute of the United
States is drawn in question or where the validity of a
statute of any State is drawn in question on the ground
of its being repugnant to the Constitution, treaties, or
laws of the United States, or where any title, right,
privilege, or immunity is specially set up or claimed
under the Constitution or the treaties or statutes of, or
any commission held or authority exercised under, the
United States.

28 U.S.C. § 1338(a) provides, in part:
(a) The district courts shall have original jurisdiction of
any civil action arising under any Act of Congress
relating to patents, plant variety protection, copyrights
and trademarks. No State court shall have jurisdiction
over any claim for relief arising under any Act of
Congress relating to patents, plant variety protection,
or copyrights. For purposes of this subsection, the term
[.]

28 U.S.C. § 4001(a)(1) provides:
In the case of a transfer of copyright ownership under
United States law in a motion picture (as the terms

-7are defined in section 101 of title 17) that is produced
subject to 1 or more collective bargaining agreements
negotiated under the laws of the United States, if the
transfer is executed on or after the effective date of this
chapter and is not limited to public performance rights,
the transfer instrument shall be deemed to incorporate
the assumption agreements applicable to the copyright
ownership being transferred that are required by the
applicable collective bargaining agreement, and the
transferee shall be subject to the obligations under each
such assumption agreement to make residual payments
and provide related notices, accruing after the effective
date of the transfer and applicable to the exploitation of
the rights transferred, and any remedies under each
such assumption agreement for breach of those
obligations, as those obligations and remedies are set
forth in the applicable collective bargaining agreement,
if
(A) the transferee knows or has reason to know at the
time of the transfer that such collective bargaining
agreement was or will be applicable to the motion
picture;

California Civil Code § 1442 provides:
CONDITIONS INVOLVING FORFEITURE, HOW
CONSTRUED.
A condition involving a forfeiture must be strictly
interpreted against the party for whose benefit it is
created.

California Civil Code § 3513 provides, in part:
[A] law established for a public reason cannot be
contravened by a private agreement.

California Rule of Court 8.155(b) provides:
(b) Omissions

-8(1) If a clerk or reporter omits a required or designated
portion of the record, a party may serve and file a
notice in superior court specifying the omitted
portion and requesting that it be prepared, certified,
and sent to the reviewing court. The party must
serve a copy of the notice on the reviewing court.
(2) The clerk or reporter must comply with a notice
under (1) within 10 days after it is filed. If the clerk
or reporter fails to comply, the party may serve and
file a motion to augment under (a), attaching a copy
of the notice.

STATEMENT OF THE CASE
A. Facts Giving Rise To This Case

fifteen (15) years
constructed by
Respondents, Shoreline Entertainment, with regard
to the distribution of the award-winning motion
picture
(5
1
CT:1015-35.)
Petitioner is the registered Copyright owner of
the screenplay having registration no. TXul-289-556
at the U.S. Copyright Office (6 CT:1269, MTA pp.
198) and registered writer, producer, feature director
______________________________
1

s Transcript in the
California Court of Appeal proceeding in the case, No. B280738;

-9and owner of the Copyright having
registration no. PA 1-642-297 at the U.S. Copyright
Office. (6 CT:1269, MTA pp. 197.)
The contract specified that
shall receive a flat fee of forty thousand dollars
($40,000) in sales expenses and administration fees
fifteen percent (15%) of revenues generated
[Respondents] on behalf of [Petitioner]
in
Petitioner would be
entitled to all remaining proceeds and revenues
but was not paid one cent. (5 CT:1016.)
In January 2010, Respondents commercially
released the film with illicit product covers and
.
(6 CT:1261, MTA pp. 82; 6 CT:1269, MTA pp. 184.)
After learning of this Petitioner engaged the services
of an attorney from L.A. because Petitioner had
cover and trailer that displayed his motion picture as
the award-winning movie it is, as part of his
MTA pp. 183, 185-186.)
On January 30th, 2010, after countless
written requests, Petitioner then formally instructed
his copyright protected motion picture (6CT:1269,
MTA pp. 197damage to [his]

- 10 Petitioner also instructed Respondents to remove the
(6 CT: 1261, MTA pp. 82.)
On January 31st, 2010, Petitioner wrote to
breach of our contract and the contracts in place with
[Petitioner] and Michael Madsen. Remove all product
until the matter is resolved, as failure to do so will
result in [Petitioner] seeking substantial damages
and costs from [Responde
CT:1269, MTA pp.
187.)
With Respondents notified of the initial breach
and failure to cure the breach
sixty-day time restraint, Petitioner was then forced
through his former attorney to file a demand for
arbitration on October 6, 2010, approximately 9
months after learning of the issues in dispute.
(2CT:320-26.)
Notice of
of contract, fraud, breach of the implied covenant of
good faith and fair dealing, conspiracy, and
negligence, and fell well within the contractuallyshortened one-year limitation period of the SAA. Id.
This filed demand for arbitration satisfied the

notice of their breach, aligned with the mandatory
arbitration clause of the contract (5 CT:1025, ¶23),
and served the broader mutual intent of the parties

- 11 for speedy dispute resolution. (5 CT:1024, ¶17.3.)
Petitioner subsequently filed two additional demands
for arbitration, the last of which was dated October
14, 2010. (2 CT:327-38.)
On October 22, 2010, Respondents asked
formal but nonthis dispute in a way that both parties can feel
satisfied and [Respondents] believe the best way
to do that is to avoid all the hassle and expense
of arbitration. (2 CT:341.)
On November 16, 2010, Respondents picked a

http://www.de

(2 CT:350.)

further agreed to the mediator that was
recommended and engaged by Respondent Eigen.
(2CT:345.)
Ropers, Majeski, Kohn, Bentley formally wrote to
[Pe
asking
[Petitioner] not to proceed with the arbitration and
to do mediation instead, which [Petitioner] agreed to
do, Respondents had their attorneys then write to
[February 10, 2011]

- 12 after committing to mediation stating that their
mediation
p.3., p.12., p.14.)

R.T.P.O.,

(2CT:341)], as
mediation had been mutually agreed at Respondents
of
mediation via formal letter on February 3, 2011, [and
confirming again on February 10, 2011] but then
(R.T.P.O., p.3., p.12., p.14.)
[2011], Re
attorney as he tried to schedule numerous dates via
calls to the agreed upon mediation, which
(R.T.P.O., p.3.)
On March 20, 2012, Maron Pictures wrote to
Mainsail [directly, as no mediation date was
forthcoming] formally demanding an accounting. On

Pictures replied that it would now
5; Appx. p.18a.)
about Maron

[their]
(Op. at

- 13 2012 and March 2013. On March 22, 2013, Maron
Pictures filed this l
(Op. at 5; Appx. p.18a.)
However, faced with having to get substantial legal
fees together on short notice due to the unforeseen
deceptive conduct of Respondents, and the untimely
24 year old sister, he did file
his action ten months later, and less than the one
year contractual limitation requirement. (MTA pp.
59 - 80.)
B. The Superior Court Proceedings
action for declaratory relief, fraud, rescission, breach
of contract, negligent misrepresentation, breach of
(Op. at 5;
Appx. p. 18a, p. 19a.)

a
p. 60a.) (Minute Order Attached hereto as Appendix
H.)
adjudication, Maron Pictures filed a first amended
complaint which asserted causes of action for
declaratory relief, breach of contract, accounting, and
(Op. at 5, 6; Appx. p. 19a.)
The court trial commenced on June 27, 2016
and the court ruled that the filmmaker never
completed delivery of the movie, meaning that the

- 14 Agreement was never fully executed, but that
Respondents were nonetheless entitled to keep all of
the profits from their distribution and licensing of
that movie, as delivered by Petitioner. The trial
court then refused to permit Petitioner to cancel the
Agreement by its terms, not because it never came
into force, but because
notwithstanding the
violations the trial court expressly found, there were
no violations. However,
deliver sufficient materials for Mainsail to begin
licensing activities and, in fact, license the film in
various countries resulting in revenues being
(Op. at 25; Appx. p. 43a.)
Respondents successfully distributed the
motion picture as delivered to over 41 countries
around the world [as per licensing agreements
provided during discovery], received revenue but
refused to share the proceeds as required by the
Agreement, and then claimed only for the first time
during the trial to have never received the very
at issue. The court found that it is
entered into several
licensing agreements for the film[.] (Op. at 4; Appx.
p. 16a.)

claims in its opening brief that its trial counsel
hat Maron Pictures was
entitled to the full protection of Federal Copyright

- 15 nothing in the record to
5; Appx. p. 19a.)
The court also noted
no accounting statements provided for by Paragraph
12.2 of the SAA were ever given to Maron Pictures,
nor has Maron Pictures received any revenue from
[M]ainsail as a result of the licensing revenue it did
(Op. at 25; Appx. p. 43a.)
On October 21, 2016 Petitioner flew in from
Ireland and appeared in court with his former
attorney, at his request, so he could be relieved as
counsel due to a breakdown in the relationship. The
withdraw as counsel, even though Petitioner had yet
to arrange other counsel. (7 CT:1529.)
to withdraw, the Court instructed Petitioner that it
was unlawful for an entity to make an appearance
without an attorney, so Petitioner asked the court if
he could have the second motion for summary
judgment moved as he had only just been made
aware of it the previous day and had to return to
Summary Judgment set for DECEMBER 9, 2016 is
(7 CT:1529.)
Thus, requiring Petitioner to obtain new
counsel capable of learning everything on a complex
file and preparing an opposition to a summary

- 16 judgment motion all in less than five weeks,
materially prejudicing the Petitioner
litigate the case. Furthermore, Petitioner was unable
to locate counsel to take on the matter that quickly.
Despite this, on December 9, 2016 the court granted
due to lack of evidence on the First, Second, Third
and Fourth Causes of Action of this summary
judgment on
issue of material fact against the moving
[Respondents] and the undisputed evidence shows
[Petitioner] cannot establish their claims against
(7CT:1532.)
C. The Appellate Court Proceedings
On or about February 16, 2017, a Notice of
Appeal was lodged with the appellate court. On
filed. (Attached hereto as Appendix F.)
The Opinion states [i]
s
attempts to show error on appeal, Maron Pictures
refers repeatedly to various provisions of Federal
Copyright Law (17 U.S.C. §§ 106, 106A, 122, 501,
502, 506). Maron Pictures did not mention these
provisions in its complaint, in opposition to summary
judgment, or in its trial brief. Maron Pictures did
proffer a certificate of copyright registration as an
exhibit at the trial, but it was not admitted into
(Op. at 5; Appx. p. 19a.) However, this
claim that the certificate of copyright registration

- 17 was not admitted into evidence is unsupported by the
record. (6CT:1269, 1270.)
Opinion also states
the parties designated the trial exhibits as part of
the record on appeal, the clerk of the superior court
was unable to includ
(Op. at 26;
Appx. p. 45a.) The trial Court not only lost the
original exhibits that were supposed to be part of the
record, but refused to add the copies Petitioner
retained, contrary to Rule of Court 8.155(b), which is
why Petitioner had to file a motion to augment.
The
appellate
division
then
granted

and a copy of trial exhibit 329, attached to the
(Op. at 27; Appx.
p. 45a.)
motion to augment, Respondents judicially noticed 5
pages, trial exhibits 254, 327, 331, 333 and 338,
which were admitted into evidence. (6CT:1258;
Mahon declaration appear to have been marked and
(Op. at 27; Appx. p. 45a.) However, there is nothing
in the record to support that any objections were
made to any of the trial exhibits except for a single
objection to exhibit 316, which was admitted.

- 18 motion to augment was introduced in evidence,
marked for identification, used by the parties and
treated as evidence. (6CT: 1253-1262, 1269-1270.)
Furthermore, the appellate division also
refused
with a correct copy of
(MTA pp. 12 through p. 57.)
Amended Co

are due to Petitioner, the Copyright Owner
Low-Case Film Proceeds calculation was determined
by reviewing the distribution statements, deal
memos, and royalty accounting reports provided
[during discovery] by the Licensor and the
MTA pp. 56.)
Film Audit
Report finds that the film has generated gross
revenue of $2,852,000 between 2009 and 2015.
(MTA pp. 57.) The Low-Case calculation [of
royalties earned] totals $428,115. (MTA pp. 56.)
On or about February 28, 2019, Kimora Pope
substituted in as counsel and filed a Request for
Rehearing and transfer to Federal jurisdiction.
On March 5, 2019, the Court of Appeal denied
the request for rehearing. (Attached hereto as
Appendix E, p. 11a.)
On March 5, 2019, Mark Mahon filed a
request to publish the opinion.

- 19 On March 5, 2019, the Court of Appeal issued
a memorandum to the Supreme Court regarding its
position that the opinion did not meet criteria for
publication specified in Rule 8.1105. (Attached
hereto as Appendix D, p. 8a.)
On March 8, 2019, Appellant filed a petition to
transfer the case.
On March 8, 2019, the Court of Appeal denied
the petition to transfer. (Attached hereto as
Appendix C, p. 6a.)
On March 11, 2019, Appellant filed a petition
for transfer of appellate division case.
On March 14, 2019, the Court denied the
petition for transfer of appellate division case.
(Attached hereto as Appendix B, p. 4a.)
On or about March 22, 2019, Appellant filed a
petition for review under Rule 8.500 to the Supreme
Court of California.
On May 15, 2019, the petition for review was
denied and the request for an order directing
publication of the opinion was denied. (Attached
hereto as Appendix A, p. 2a.)
REASONS WHY CERTIORARI SHOULD BE
GRANTED
I. THERE IS AN OBVIOUS CONFLICT OF
AUTHORITY IN THE QUESTIONS
PRESENTED

- 20 A. The Decision Below Conflicts With
Previous Decisions On The First,
Second and Ninth Circuits.
The causes of action
Complaint included declaratory relief, fraud,
rescission,
breach
of
contract,
negligent
misrepresentation, breach of fiduciary duty and
accounting.
Adjudication [wa]s

(3CT:610., Appx. p. 60a.) Petitioner respectfully
submits that the presiding Judge was fully aware the
matter involved a dispute over a motion picture and
correctly referred to it as same. (3CT: 610, 614, 618;
Appx. p. 61a, 65a, 71a.) She also acknowledged
with the Independent Film & Television Alliance,
(3CT: 611, Appx. p. 62a.)
However, the Copyright Act expressly
preempts "all legal and equitable rights that are
equivalent to any of the exclusive rights within the
general scope of copyright as specified by section
106." 17 U.S.C. § 301. The Ninth Circuit has applied
the following two-prong test:

- 21 A state law cause of action is preempted by the
Copyright Act if two elements are present. First, the
rights that a plaintiff asserts under state law must be
"rights that are equivalent" to those protected by the
Copyright Act. 17 U.S.C. § 301(a); Second, the work
involved must fall within the "subject matter" of the
Copyright Act as set forth in 17 U.S.C. §§ 102 and 103.

Kodadek v. MTV Networks, Inc., 152 F.3d 1209, 1212
(9th Cir. 1998) (citing 1 Nimmer, § 1.01[B] at 1-11)
(citations omitted). Montz v. Pilgrim Films, 649 F.3d
975, 982 (9th Cir. 2011); (holding same) see also
448 F.3d 1134, 1137
(9th Cir. 2006).
Under the first prong of the preemption test,
the court should have determined whether the
declaratory relief, the claim for fraud, rescission,
breach of contract, negligent misrepresentation,
breach of fiduciary duty and accounting protected
rights were equivalent to those protected by the
Copyright Act. Petitioner respectfully submits that
its
April 16, 2009 Plaintiff Maron Pictures, LLC entered
into a Distribution Agreement with Mainsail for the
distribution of a film produced by Plaintiff Maron
Pictures entitle
pp.
63.) Petitioner easily passed this test.
Further,
order not to be equivalent, the
right under state law must have an `extra element'

- 22 that `changes the nature of the action so that it is
qualitatively different from a copyright infringement
claim." Xerox Corp. v. Apple Computer, Inc., 734 F.
Supp. 1542, 1550 (N.D. Cal. 1990) (quoting Mayer v.
Josiah Wedgwood and Sons, Ltd., 601 F. Supp. 1523,
1535 (S.D.N.Y. 1985)).
Under the second prong of the analysis, the
court should have determined whether Petitioner's
works fell within the subject matter of copyright that
are equivalent to any of the exclusive rights within
the general scope of copyright as specified by section
106. Under 17 U.S.C. §102(a) provides that
Copyright protection subsists in works fixed in any
tangible medium. Works of authorship include the
following categories:
(1) literary works;
(2) musical works, including any
accompanying words;
(3) dramatic works, including any
accompanying music;
(4) pantomimes and choreographic works;
(5) pictorial pictures and other audiovisual
works;
(6) motion pictures and other audiovisual
works;
(7) sound recordings; and
(8) architectural works.

In relation to 17 U.S.C. §106, the words
in the initial Complaint,
were used four (4) times and

- 23 was used thirteen (13) times. Again, this prong is
easily met. (MTA pp. 59 through 80.) As both prongs
are met with respect to its claims, the court should
have found all
claims are preempted by
the Copyright Act.
Further, because Petitioner sought Rescission
of the Agreement in its Third Cause of Action (MTA
pp. 71)
[his] ownership rights by reference to the Copyright
Santa-Rosa v. Combo Record, 471 F.3d 224, 227
(1st Cir. 2006). Petitioner submits that because
determination of its
rights and duties that the Distribution Agreement
(MTA pp. 69.) then
the court would have been required to make its
determination of his rights by reference to the
Copyright Act. Petitioner further submits that all
causes of action in the complaint, one through seven,
required the court to make its determinations by
reference to the Copyright Act. Petitioner
respectfully submits that the judge should have
preempted the case pursuant to 17 U.S.C. 301(a) and
jurisdiction over any claim for relief arising under
any Act of Congress relating to patents, plant variety
established for a
contravened
§ 3513.) Moreover,

public

reason

cannot

be

also set

- 24 incorrect parameters for all the other wrong
determinations that followed.
B. Federal Copyright Law and The
Second, Third, Fourth, Ninth and
Tenth Circuits Have Well Established
Precedents.
complaint which asserted causes of action for
declaratory relief, breach of contract, accounting, and
(Op. at 5, 6; Appx. p. 19a.)
Again, pursuant to 17 U.S.C. § 301 "all legal
and equitable rights that are equivalent to any of the
exclusive rights within the general scope of copyright
as specified by section 106" are preempted. Petitioner
submits that the declaratory relief sought, the claim
for breach of contract, accounting and conversion are
rights that were equivalent to those protected by the
Copyright Act. Kodadek v. MTV Networks, Inc., 152
F.3d 1209, 1212 (9th Cir. 1998); X17, Inc. v.
Lavandeira, 563 F. Supp. 2d 1102, 1105 (C.D. Cal.
2007)(same); Goldberg v. Cameron, 482 F. Supp. 2d
1136, 1151 (N.D. Cal. 2007)(same); Grosso v.
Miramax Film Corp., 383 F.3d 965, 968 (9th Cir.
2004); EHAT v. TANNER, 780 F.2d 876, 877 (10th
Cir. 1986); Rosciszewski v. Arete Associates, Inc., 1
F.3d 225, 229 (4th Cir. 1993). Furthermore,
Petitioners declaratory relief
determination of its rights (MTA pp. 69)
breach of its obligation entitled Maron

- 25 Op. at 24;
Appx. p. 42a.)
f
copyright registration as an exhibit at the trial, but it
was not admitted into evidence
Pictures claims in its opening brief that its trial
was entitled to the full protection of Federal
transcript there is nothing in the record to support
this claim. (Op. at 5; Appx. p. 19a.) Petitioner
submits that there is nothing in the record to support
s
not admitted into evidence or that Respondents
even objected to this evidence. Moreover, it was used
at trial and this is an indisputable fact. (6 CT:1269,
MTA pp. 197-198.)
not needed to support this claim, as there is legal
procedure that should have been followed once it was
produced. "A certificate of registration from the
United States Register of Copyrights constitutes
prima facie evidence of the valid ownership of a
copyright". Hamil Am. Inc. v. GFI, 193 F.3d 92, 98
(2d Cir. 1999) (citations omitted); see also Folio
Impressions, Inc. v. Byer California, 937 F.2d 759,
763 (2d Cir. 1991) (same); Fonar Corp. v. Domenick,
105 F.3d 99, 104 (2d Cir. 1997) (same). Urbont v.
Sony Music Entm't, 831 F.3d 80, 88 (2d Cir. 2016)
(

- 26 registration made before or within five years after
first publication of the work constitutes prima facie
Furthermore, [a] certificate of copyright registration
Fonar Corporation v. Domenick, 105 F.3d 99, 104 (2d
Cir. 1997)
certificate creates a rebuttable presumption that the
Whimsicality, Inc.
v. Rubie's Costume Co., Inc., 891 F.2d 452, 455 (2d
Cir. 1989). However
certificate of copyright registration thus shifts to
Respondents the burden of proving the invalidity of
the copyright, see Hasbro Bradley, Inc. v. Sparkle
Toys, Inc., 780 F.2d 189, 192 (2d Cir. 1985); Fonar
Corporation v. Domenick, 105 F.3d 99, 104 (2d Cir.
1997)(same); and there the burden rests, unless the
presumptions are rebutted.
Respondents offered no evidence or proof at
trial to overcome this presumption. Thus, the trial
court erred
Federal jurisdiction and incorrectly found in favor of
Respondents
as
they
openly
admitted
to
infringement without consequence. (Op. generally at
p. 25. through p. 31; Appx. p. 43a. through p. 50a.)
Title 28 U.S.C. § 1338(a) provides, in pertinent
part, for original and exclusive federal district court
jurisdiction over any civil action arising from an act
of Congress relating to copyrights.

- 27 have subject matter jurisdiction over matters
"arising under any Act of Congress relating to
patents, plant variety protection, copyrights and
tradeScandinavian Satellite System, AS v.
Prime TV Ltd., 291 F.3d 839, 842 (D.C. Cir. 2002)
Whilst Petitioner accepts that his first lawyer filed
the matter in State court, once the certificate of
copyright registration was presented to the court,
this required the court to preempt the action under
the Federal Copyright Act of 1976, 17 U.S.C. § 101 et
seq. ("Copyright Act"). The Copyright Act expressly
provides for exclusive Federal jurisdiction over any
action involving Copyright. 17 U.S.C. § 106.
Preemption is present when Federal law regulates
an area that Congress intended to be exclusively
occupied by the Federal government. When federal
legislation is comprehensive, then it is assumed that
the area is preempted. Worth v. Universal Pictures,
Inc., 5 F. Supp. 2d 816, 820 (C.D. Cal. 1997)
First
Amended
Complaint
outlined four state law claims for relief. In order to
remove this action, federal law must be found to so
preempt the state law claims that they are actually
considered federal claims. The court determines
whether or not preemption applies to the state law
claims
by
discerning
Congressional
intent.
Schwarzer et al., Federal Civil Procedure Before
Trial 2A-15 (1997)

- 28 Preemption allows a claim to be removed and
adjudicated in federal court. Removal is proper over
preempted claims in which "`Congress clearly
manifested an intent to convert state law claims into
federal-question-claims.'" Holman v. Laulo-Rowe
Agency, 994 F.2d 666, 668 (9th Cir. 1993). "[The]
certificate of registration from the United States
Register of Copyrights constitute[d] prima facie
evidence of the valid ownership of a copyright" and
the matter should have been preempted by the court.
Hamil Am. Inc. v. GFI, 193 F.3d 92, 98 (2d Cir. 1999)
In relation to the breach of contract claim,
breach of contract claim is preempted if it is merely
based on allegations that the defendant did
something that the copyright laws reserve
exclusively to the plaintiff (such as unauthorized
reproduction,
performance,
distribution,
or
Am.
Movie
Classic
v.
Turner
Entertainment, 922 F. Supp. 926, 931 (S.D.N.Y.
1996)
buted his motion picture
worldwide with unauthorized and illicit covers,
which were never globally withdrawn as per
Daboub v. Gibbons, 42 F.3d 285, 288 (5th
1995)
(Holding that the conversion claim
preempted where the plaintiffs alleged that
defendants improperly copied, distributed,

Cir.
was
the
and

- 29 Copyright Act expressly preempts all causes of action
Further, "it is virtually axiomatic that the
public interest can only be served by upholding
copyright
protections
and
correspondingly,
preventing the misappropriation of skills, creative
energies, and resources which are invested in the
protected work." Warner Bros. Entm't, Inc. v. WTV
Sys., 824 F.Supp.2d 1003, 1015 (C.D. Cal. 2011)
(citing Apple Computer, Inc. v. Franklin Computer
Corp., 714 F.2d 1240, 1255 (3rd Cir. 1983)); see also
Disney Enters., Inc. v. VidAngel, Inc., 224 F. Supp. 3d
957, 978 (C.D. Cal. 2016)
public interest is
also served by upholding the rights of copyright
owners, "[o]therwise, the rationale for protecting
copyright, that of encouraging creativity, would be
undermined." Video Pipeline, Inc. v. Buena Vista
Home Entert., Inc., 192 F. Supp. 2d 321, 347 (D.N.J.
2002) (citing from Apple Computer v. Franklin
Computer Corp., 714 F.2d 1240, 1253 (3d Cir. 1983))
and effort were undoubtedly put forth in these
endeavors of full-length motion pictures, the public
interest favors the protection of copyright, and the
concomitant encouragement of individual creativity
Video Pipeline, Inc. v. Buena Vista
Home Entert., Inc., 192 F. Supp. 2d 321 (D.N.J.
2002).

- 30 Needless to say, courts also observe that a
knowing infringer cannot be "permitted to
construct
its
business
around
its
infringement." Apple Computer, Inc. v. Franklin
Computer Corp., 714 F.2d 1240, 1255 (3rd Cir. 1983);
Worlds of Wonder v. Veritel Learning Sys., 658 F.
Supp. 351, 357 (N.D. Tex. 1986) (holding same)
II. THE DECISION MAKES THE SECOND
APPELLATE DISTRICT LIABLE FOR
CONTRIBUTORY COPYRIGHT
INFRINGEMENT
A. The
Copyright, Which Is Contrary To
17 U.S.C. § 501.
"Contributory infringement originates in tort
law and stems from the notion that one who directly
contributes to another's infringement should be held
accountable." Fonovisa, Inc. v. Cherry Auction, Inc.,
76 F.3d 259, 264 (9th Cir. 1996). "[O]ne who, with
knowledge of the infringing activity, induced, causes
or materially contributes to the infringing conduct of
another, may be held liable as a `contributory'
infringer." Id., quoting Gershwin Publishing Corp. v.
Columbia Artists Management, Inc., 443 F.2d 1159,
1162 (2d Cir. 1971). An individual may be liable for
contributory infringement even where she does not
have actual knowledge of the infringing activity, but
should have reason to know of the infringing

- 31 conduct. Cable/Home Comm. Corp. v. Network
Prods., Inc., 902 F.2d 829, 845-46 (11th Cir. 1990);
Microsoft Corp. v. EEE Business Inc., 555 F. Supp.
differently, liability exists if the [party] engages in
"personal conduct that encourages or assists the
infringement." A M Records, Inc. v. Napster, Inc., 239
F.3d 1004, 1020 (9th Cir. 2001) (citing Matthew
Bender Co. v. West Publ'g Co., 158 F.3d 693, 706 (2d
Cir. 1998)).
Second Appellate District also reiterated to the Court
over seven years after a very specific formal
demand was issued by Appellant to the Respondents

(6CT:1269, MTA pp. 197-198), and to remove all
y place where the product images or

exclusive rights. 6 CT:1259, MTA pp. 82, 6 CT:1256,
MTA pp. 132-135; 6 CT:1256, MTA pp. 157-160;
6CT:1256, MTA pp. 162-165; 6 CT:1256, MTA pp.
137; 6 CT:1258, MTA pp.130.
were never assigned to the Respondents and are
protected under 17 U.S.C. §106A (a)(3)(A), 17 U.S.C.
§106A (a)(3)(B) and under the Berne Convention
Implementation Act of 1988, Section 3 (b) and

- 32 Section 3 (b)(2).
Petitioner
respectfully submits that because the trial court and
appellate court were made aware of this and have
not dealt with the issues presented, each judge has
separately
personal conduct that
encourages or assists the infringement. A M
Records, Inc. v. Napster, Inc., 239 F.3d 1004, 1020
(9th Cir. 2001)
Petitioner also made the court aware that
relation to the
Revenue tracking of the Picture up to 2015. (6
CT:1256, MTA pp. 139, 145, 149.) Appellant also
certified by James W. Huddleston of Global Media
Rights, showing the Picture generated gross revenue
of $2,852,000 up to 2015 (6 CT:1256, MTA pp. 157160)
Respondents earned revenue on the Low-Case of the
2015, as certified by James W.
Huddleston of Global Media Rights. 6CT:1256, MTA
pp. 162-165; 7 CT:138832.)
However, appellate district
as part of the record on appeal, the clerk of the
superior court was unable to include those
(Op. at 26; Appx. p. 45a.) The trial Court not only
lost the original exhibits that were supposed to be

- 33 part of the record, but refused to add the copies
Petitioner retained for them, contrary to Rule of
Court 8.155(b), which is why Petitioner had to file a
motion to augment.
The trial court also never provided the record

Courthouse on 06/08/16. In a show of extreme
prejudice to Petitioner, the appellate division then
refused the vast majority of
request to
augment the record, which included a correct copy of
through p. 61.) that is marked as exhibit 1 in its
motion to augment. (MTA pp. 12 - 57.)

attached summarizing funds that

are

due to
-Case
Film Proceeds calculation was determined by
reviewing the distribution statements, deal memos,
and royalty accounting reports provided by the
Licensor and the
(MTA pp. 56.) The
gross revenue of $2,852,000 between 2009 and 2015.
(MTA pp. 57.)
-Case calculation totals
MTA pp. 56.) Further, the very evidence
at issue was also introduced, (Exhibits 342 and 343)
(6CT:1256, MTA pp 157-160, 162-165) presented to

- 34 identified, marked at trial and used by the parties.
The appellate court also acknowledged that
the motion picture
years 2014 to 2016, and contends defendants must
have earned revenue from those showings. We must
treat this as a claim that there is clear error on the
face of the record. We do not see such error.
Although Maron Pictures offered several exhibits
which it contends list showings of its film since 2010
(exhibits 316 and 318-322), only one page of exhibit
316 was admitted into evidence. Exhibit 316, cited
by the trial court, shows 13 showings on Turner
Classic Movies (TCM) in Europe from 2014 to 2016.
It is not clear from the record on appeal whether
defendants had any agreement with TCM, the
channel which showed Mar
of the licensing agreements in the record refers to
TCM or appears to cove
(Op. at p. 30, p. 31;
Appx. p. 49a, p. 50a.) However, the only objection
Respondents made to exhibits during the trial was to
Exhibit 316, which was previously admitted, heard
and argued but still admitted. (6CT:1261.) Further,
t
summarizing funds that are due to Petitioner, the
Copyright Owner, which the appellate court denied.
Petitioner respectfully submits that because
appellate court denied it, then this means that they

- 35 had to review it to make a determination, so they
are aware of the infringements still taking
place. Further, appellate division acknowledged
[w]hile it is undisputed Maron Pictures delivered
enough items to enable defendants to license the film
and earn revenue from the licensing, it was not clear
error on the face of the record for the court to find
; Appx. p. 46a.) Petitioner
submits that the court could not find nondelivery
because delivery was completed. Respondents also
presented no evidence to the contrary. Numerous
exhibits of evidence were presented by Petitioner,
indentified, marked at trial, and used by the parties.
(6CT:1253 - 1262, 1269 - 1270.) The evidence
unambiguously showed that his motion picture
continued to be released and shown throughout the
world through the time of trial (and even now). (MTA
pp. 84-128, 141-155, 157-160, 162-165, 167, 190-192;
6 CT:1258, 1269, 1275.)
Consol. Lumber Co. v. Frew, (1916) 32 Cal.
App. 118, 122 (holding that where the record showed
that certain exhibits were introduced in evidence and
marked for identification, and treated as evidence,
that shows that they were admitted in evidence, and
not merely offered for identification); Dodson v.
Greuner, (1938) 28 Cal. App. 2d 418, 423 (same);
Reed v. Reed (1954) 128 Cal.App.2d 786, 790 791
that when a
document has been considered by the court and the

- 36 parties as being in evidence, the fact that no formal
offer in evidence was made will not exclude it from
consideration as part of the record on appeal.); Miller
v. Superior Court, (2002) 101 Cal. App. 4th 728, 742,
(same). Petitioner again respectfully submits that
the superior court and appellate district were made
aware of this and have not dealt with any of its
issues presented. Futhermore, contributory copyright
infringement requires that the secondary infringer
"[k]now, or have reason to know" of direct
infringement. Adobe Systems Incorporated v. Canus
Productions, Inc., 173 F. Supp. 2d 1044, 1048 (C.D.
Cal. 2001); Cable/Home Communication Corp. v.
Network Prods., Inc., 902 F.2d 829, 845-46 n. 29
(11th Cir. 1990)(same); Religious Tech. Ctr. v.
Netcom On-Line Communication Servs., Inc., 907 F.
Supp. 1361, 1374 (N.D.Cal. 1995) (framing issue as
"whether [defendant] knew or should have known of"
the infringing activities).
B. The
Decision Stops Petitioner Receiving
Bi-Annual Accounting and
Reporting Contrary To 17 U.S.C. §
119(b).
Pictures having no contractual right to receive
periodic accounting statements from defendants.
Maron Pictures still has a contractual right to obtain
financial information from defendants. Paragraph

- 37 12.1 of the SAA requires defendants to keep books
and records using generally accepted accounting
procedures; the duty is not contingent on Maron
y. Paragraph 12.7
permits Maron Pictures to audit those books once a
year; this right is not conditioned on delivery
completion. Thus, the trial court ruling did not
result in Maron Pictures having no access to
nsing, it
merely shifted the cost and initiative from
defendants to Maron
(Op. at p. 28, p. 29;
Appx. p. 47a.)
However, the opinion failed to address that
Petitioner had hired an expert witness, James
Film
Audit Report
Film Proceeds Report.
(R.T.P.O., p.54 - p.61.) His findings are very
-Case Film Proceeds calculation
was determined by reviewing the distribution
statements, deal memos, and royalty accounting
reports provided [during discovery] by the Licensor
and the
. 60.)
Case calculation [of royalties earned] totals
(R.T.P.O., p. 60.) His reports also
determined that Respondents received $285,410 in
minimum guarantee advances (R.T.P.O., p. 60.) from
license agreements only provided during legal
discovery. So, an audit was conducted up until
2015.

- 38 Furthermore, the trial court and appellate
district does stop
annual accounting and reporting, as required by
Federal Copyright Law and their decision is contrary
of account, covering the preceding 6and as codified
royalty fee payable to copyright owners pursuant to
paragraph (4) for that 6constitutional requirement. Also,
Act exclusively governs a claim when: (1) the
particular work to which the claim is being applied
falls within the type of works protected by the
Copyright Act under 17 U.S.C. §§ 102 and 103, and
(2) the claim seeks to vindicate legal or equitable
rights that are equivalent to one of the bundle of
exclusive rights already protected by copyright law
under 17 U.S.C. § 106. See 17 U.S.C. § 301(a
he
general scope requirement is satisfied only when the
state-created right may be abridged by an act that
would, by itself, infringe one of the exclusive rights
In other words,
the state law claim must involve acts of reproduction,
adaptation, performance, distribution or display. See
Briarpatch Ltd. v. Phoenix Pictures,
Inc., 373 F.3d 296, 305 (2d Cir. 2004).
action for an accounting is derived from a "common
nucleus of operative fact" as Plaintiff's other
Worth v. Universal

- 39 Pictures, Inc., 5 F. Supp. 2d 816, 823 (C.D. Cal.
1997). Moreover,
misappropriation and for an accounting are
Brian Jonestown
Massacre v. Davies, Case No. 13-cv-04005 NC, at 6
(N.D. Cal. Aug. 18, 2014). The public also has a
strong interest in "preserv[ing] the integrity of the
copyright laws which seek to encourage individual
effort and creativity by granting valuable enforceable
rights." Atari, Inc. v. North American Philips
Consumer Electronics Corp., 672 F.2d 607, 620 (7th
Cir. 1982)

Dec
relevant to the accounting claim and was considered
; Appx. p. 36a.) However,
the
a
statements provided for by Paragraph 12.2 of the
SAA were ever given to Maron Pictures, nor has
Maron Pictures received any revenue from [M]ainsail
as a result of the licensing revenue it did r
(Op. at 25; Appx. p. 43a.) These facts were brought
up at trial and were supported by the evidence
presented too but were clearly not considered by the
court.
The [Respondent] has provided the

- 40 [Petitioner] with incomplete and inaccurate
accounting statements that provide more questions
than answers. At no time has the [Respondent]
furnished the [Petitioner] with a comprehensive
(R.T.P.O., p. 59.)
belated discovery is a question of fac
Nguyen v. W.
Digital Corp., 229 Cal. App. 4th 1522, 1552 (Cal. Ct.
App. 2014)
purposes of the summary judgment motion, Maron
statement of fact
that Maron Pictures was aware of its claim on
October 6, 2
6a.) However,
(a) Petitioner could not have responded to
judgment motion which was set for hearing on
December 9, 2016, when he was told by the court on
October 21, 2016 that it is unlawful for an entity to
make an appearance without an attorney, after the
trial court
withdraw as counsel on the same day and refused to
move the summary judgment hearing date which
Petitioner was only made aware of the previous day;
(b) Petitioner was never served or shown any
statement of fact document by respondents that were
presented to the trial court for the summary
judgment motion or hearing. The appellate district
was also made aware of this fact via an attached

- 41 -

03/01/2019 that was denied on March
5, 2019 (Appx. p. 11a.), through an attached signed
declaration of Mark Mahon to his
tran
2019, which was denied on the
same day (Appx. p. 6a.) and through an attached
signed declaration of Mark Mahon to his
transfer of appellate div
03/11/2019 that was also denied by appellate division
on March 14, 2019. (Appx. p. 4a.)
C. The
Decision Forfeits Petitioner Of His
Personal Property, His Rights and
Moral Rights, Which Are
Constitutionally Protected Under The
Copyright Act of 1976 Pursuant to
International Provisions As Legislated
For By Congress Under The Berne
Convention Implementation Act of
1988.
ruling is wrong because the law abhors a forfeiture.
It is not entirely clear what Maron Pictures believes
has been forfeited
To the extent Maron Pictures
the film forever, Maron Pictures is mistaken. The
trial court simply found that the specific breach of
contract posited by Maron Pictures as a basis for

- 42 terminating the SAA did not occur and therefore
Maron Pictures had no right to terminate the SAA on
; Appx. p. 47a, p. 48a.)
However, the
that
the copyright laws reserve exclusively to the plaintiff
(such as unauthorized reproduction, performance,
Am. Movie Classic v.
Turner Entertainment, 922 F. Supp. 926, 931
(S.D.N.Y. 1996).
Further, the Grant of Rights ¶1.1 of the
very clear and outlines the rights assigned. ¶1.1
throughout the Territory the sole and exclusive right,
license and privilege to license to distribute, as agent
for and on behalf of the [Petitioner], the Show
identified in item A of the Deal Terms section of this
Agreement. This Grant of Rights shall also include
the right to license the Show in all media, now
known or hereinafter devised, including, but not
limited to, theatrical, home video (including
videocassette and videodisc), television (including
free, satellite, cable, pay, pay-per-view and video on
demand), cruise ships, airliners, the Internet and
wide area computer networks such as the World
Wide Web, in all languages and versions of the Show
(5CT:1018.)

- 43 unsettled
royalties
and
distribution rights have been forfeited. Petitioner
rights, except Ireland and North America, to
(5CT:1018.)
to another distributor to exploit all outstanding and
remaining international territories have been
forfeited and have been for the last several years too,
plus the value lost by this. Furthermore, the court
and appellate district were made aware that
copyright protected film is still being
commercially exploited by major global corporations
around the world even today, (MTA pp. 84-128, 141155, 157-165, 190-192, 6 CT:1256, 1258, 1269),
including but not limited to Apple, Amazon, Google,
EOne, You Tube, to name a few, despite Respondents
contending that the film was never delivered to them
bal
exclusive rights under 17 U.S.C. § 106A (a)(3)(A), 17
U.S.C. §106A (a)(3)(B) and The Berne Convention
Implementation Act of 1988, Section 3 (b) and
Section 3 (b)(2), (6 CT: 1269, MTA p. 183), as the
Res
(Opening Brief p. 36.) However, it is well
interpreted the
knowledge requirement for contributory copyright

- 44 infringement to include both those with actual
knowledge and those who have reason to know of
Ellison v. Robertson, 357 F.3d
1072, 1076 (9th Cir. 2004) (citing A M Records, Inc.
v. Napster, Inc., 239 F.3d 1004, 1019 (9th Cir. 2001)).
Petitioner respectfully submits that the court and
appellate district have actual knowledge
have reason to know of direct infringement.
The a
violate
Respondents under their agreement. (17 U.S.C. §§
106(1), 106(2), 106(4), 106(5), 106(6), 106A). The
scope of the Grant of Rights ¶1.1 assigned to
Respondents is clearly defined in the SAA.
(5CT:1018.) Further, this right is also defined under
Federal Copyright Law (17 U.S.C. 106 (3)) which
distribute copies or phonorecords of the
copyrighted work to the public by sale or other
transfer of ownership, or by rental, lease,
However, pursuant to 17 U.S.C. 201 (d)(2)
he
exclusive rights comprised in a copyright, including
any subdivision of any of the rights specified by
section 106, may be transferred as provided by clause
(1) and owned separately. The owner of any
particular exclusive right is entitled, to the extent of
that right, to all of the protection and remedies
Warner
Bros., Inc. v. Wilkinson, 533 F. Supp. 105 (D. Utah

- 45 copyrighted material for use by others under sections
106 and 201 et seq. of the Copyright Act has never
encompassed a right to transfer the work at all times
and at all places free and clear of all regulation; it
has meant that the copyright owner has the
exclusive right to transfer the material for a
Orson, Inc. v. Miramax
Film Corp., 189 F.3d 377, 386 (3d Cir. 1999)
forfeits
Petitioner
from
commercially using his property under 17 U.S.C. §§
106(1), 106(2), 106(3), 106(4), 106(5), 106(6) and
under 17 U.S.C. §§ 106(1),
106(2), 106(4), 106(5), 106(6), 106A, which were
never assigned to Respondents. Petitioner also
submits that the court ignored judiciary and judicial
procedure pursuant to 28 U.S.C. § 4001(a)(1) when
making their determinations, which addresses
transfers of rights in motion pictures.
To the extent Maron Pictures contends the
ghts to the film
forever, Maron Pictures is mistaken. The trial court
simply found that the specific breach of contract
posited by Maron Pictures as a basis for terminating
the SAA did not occur and therefore Maron Pictures
had no right to terminate the SA
(Op. at p. 29; Appx. p. 48a.) Petitioner submits that

- 46 the court has forfeited him of his right to assign his
distribution rights, plus revenues lost by this.
However, pursuant to 17 U.S.C. § 501 (a)
Anyone who violates any of the exclusive rights of
the copyright owner as provided by sections 106
through 122 or of the author as provided in section
of the author, as the case may be. For purposes of
this chapter (other than section 506), any reference
to copyright shall be deemed to include the rights
conferred by section 106A(a). As used in this
subsection, the term anyone includes any State,
any instrumentality of a State, and any officer or
employee of a State or instrumentality of a State
acting in his or her official capacity. Any State,
and any such instrumentality, officer, or employee,
shall be subject to the provisions of this title in
the same manner and to the same extent as any
nongovernmental entity.
Petitioner
submits the current ruling as it stands; the State of
California and the judges who were working on
behalf of the State in this matter are now liable for
Cont
conduct
that encourages or assists the infringement." A M
Records, Inc. v. Napster, Inc., 239 F.3d 1004, 1020
(9th Cir. 2001) (citing Matthew Bender Co. v. West
Publ'g Co., 158 F.3d 693, 706 (2d Cir. 1998).

- 47 III. THE SECOND APPELLATE
DISTRICT
IS
INCORRECT
Finally, the questions merit review because
the Second
ruling forfeits
petitioner of
U.S.C. §201(d)(1) and of rights to his Copyright
protected motion picture which still continues to be
performed around the world.
Furthermore, the law abhors a forfeiture. (Cal.
Civ. Code, § 1442; Ballard v. MacCallum. (1940) 15
Cal. 2d 439, 444 [109 P.2d 692].). A forfeiture is a
total loss of a right or a thing because of the failure
to do something as required. In fairness and good
conscience, a court of equity will refuse to permit an
unreasonable forfeiture and has particularly strong
application to the ownership of property, an interest
for which the law shows great respect. Title to
property should never be lost for a trivial reason.
Accordingly, Petitioner also submits the
existing forfeiture is a violation of 17 U.S.C. §301(a)
as other than the Copyright owner,
entitled to any such right or equivalent right in
any such work under the common law or
statutes of any State.
In addition particularly absent binding
circuit precedent that supports the second appellate
decision, contrary precedent cases across all
circuits clearly establish that contributory copyright

- 48 infringement requires that the secondary infringer
"[k]now, or have reason to know" of direct
infringement. Adobe Systems Incorporated v. Canus
Productions, Inc., 173 F. Supp. 2d 1044, 1048 (C.D.
Cal. 2001); Cable/Home Communication Corp. v.
Network Prods., Inc., 902 F.2d 829, 845-46 n. 29
(11th Cir. 1990)(same). Since the appellate distric
refer[red]
repeatedly to various provisions of Federal Copyright
Law (17 U.S.C. §§ 106, 106A, 122, 501, 502, 506)
[and] Maron Pictures did proffer a certificate of
copyright registration as
5; Appx. p. 18a.) then the district
and
one who directly contributes to another's
infringement should be held accountable." Fonovisa,
Inc. v. Cherry Auction, Inc., 76 F.3d 259, 264 (9th
Cir. 1996).

- 49 CONCLUSION
This Petition for Writ of Certiorari should be
granted. The Court may wish to consider summary
reversal of the decision of the Second Appellate
District and remand the matter as it deems
appropriate.
Respectfully submitted,
JANICE R. MAZUR
MAZUR & MAZUR, LLC
13465 Camino Canada,
Suite 106, No. 103
El Cajon, California 92021
Telephone: 800-383-5002
appealslawyer@aol.com
July 5, 2019

APPENDICES

1a

APPENDIX A

2a
Court of Appeal, Second Appellate District, Division
Eight - No. B280738
DATE: May 15, 2019
S254768
IN THE SUPREME COURT OF CALIFORNIA
En Banc
_______________________________________________
MARON PICTURES LTD., Plaintiff and Appellant,
v.
SAM EIGEN et al., Defendants and Respondents
_______________________________________________
The petition for review is denied.
The request for an order directing publication of the
opinion is denied.

CANTIL-SAKAUYE
_____________________________

Chief Justice

3a

APPENDIX B

4a
IN THE COURT OF APPEAL OF THE STATE OF
CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION: 8
DATE: March 14, 2019
MARON PICTURES LTD T/A MARON PICTURES
LLC et al.,
Plaintiffs and Appellants,
v.
SAM EIGEN et al.,
Defendants and Respondents.

B280738
Los Angeles County Super. Ct. No. SC120432

THE COURT:
Petition for transfer of appellate division case filed on
March 11, 2019, is denied.

cc:

Kimora R. Pope
Annie Rian
Richard Charnley
File

5a

APPENDIX C

6a
IN THE COURT OF APPEAL OF THE STATE OF
CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION: 8
DATE: March 8, 2019
MARON PICTURES LTD T/A MARON PICTURES
LLC et al.,
Plaintiffs and Appellants,
v.
SAM EIGEN et al.,
Defendants and Respondents.

B280738
Los Angeles County Super. Ct. No. SC120432

THE COURT:

STRATTON, ACTING P.J.
___________________________

Acting Presiding Justice

7a

APPENDIX D

8a
IN THE COURT OF APPEAL OF THE STATE OF
CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION EIGHT
MEMORANDUM
TO:

THE SUPREME COURT OF THE STATE
OF CALIFORNIA

FROM: PRESIDING JUSTICE TRICIA BIGELOW
ASSOCIATE JUSTICE ELIZABETH A.
GRIMES
ASSOCIATE JUSTICE MARIA STRATTON
DATE: March 5, 2019
RE:

RECOMMENDATION TO DENY REQUEST
FOR PUBLICATION
Compliance with California Rules of Court,
rule 8.1120
Maron Pictures Ltd. v. Sam Eigen et al.
B280738;
(Super. Ct. No.: SC120432)
Opinion filed February 15, 2019

Attached is a copy of the opinion filed in the above
case, not certified for publication. Also attached is a
copy of a letter dated March 4, 2019, from Mark
Mahon, a non party, requesting publication of this

9a
opinion.
It is the view of this court that the issues involved
are not such that the opinion meets the criteria for
publication specified in rule 8.1105. This was the
original view of the members of the panel
participating in the opinion, and after reexamination
and reconsideration of the matter of publication, we
still consider that view to be valid. Therefore,
pursuant to rule 8.1120, this court is referring the
matter to the Supreme Court in the above
context.
Attachments
cc: All Parties

10a

APPENDIX E

11a
IN THE COURT OF APPEAL OF THE STATE OF
CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION: 8
DATE: March 5, 2019
MARON PICTURES LTD T/A MARON PICTURES
LLC et al.,
Plaintiffs and Appellants,
v.
SAM EIGEN et al.,
Defendants and Respondents.

B280738
Los Angeles County Super. Ct. No. SC120432

THE COURT:*
Petition for rehearing is denied.
*___________________________________________
BIGELOW, P.J. GRIMES, J. STRATTON, J.

12a

APPENDIX F

13a
Filed 2/15/19 Maron Pictures Ltd. V. Eigen CA2/8

NOT TO BE PUBLISHED IN THE OFFICIAL
REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from
citing or relying on opinions not certified for publication or ordered published,
except as specified by rule 8.1115(b). This opinion has not been certified for
publication or ordered published for purposes of rule 8.1115.

IN THE COURT OF APPEAL OF THE STATE OF
CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION EIGHT
MARON PICTURES
LTD.,
Plaintiff and Appellant,

B280738
(Los Angeles County
Super. Ct. No.
SC120432)

v.
SAM EIGEN et al.,
Defendants and
Respondents.

APPEAL from a judgment of the Superior
Court of Los Angeles County, H. Chester Horn, Jr.,
Judge. Affirmed.

14a
The Law Office of Suzanne Raina Natbony,
Suzanne R. Natbony; Freeman Freeman & Smiley
and Jeffrey M. Jensen for Plaintiff and Appellant.
Charnley Rian, Richard L. Charnley and Annie
Rian for Defendants and Respondents.
_________________________

INTRODUCTION
This is a dispute between the owner of a film
and the agent hired to license and distribute the film.
Plaintiff and appellant Maron Pictures Ltd. entered
into a Sales Agency Agreement (SAA) with defendant
and respondent Mainsail, LLC to license and
distribute Maron Pictures s film Strength and
Honour. Disputes arose between the parties within a
few months of executing the SAA, but Maron Pictures
did not file this action until four years later. Maron
Pictures s action named respondents Mainsail,
Mainsail s Director of Distribution Sam Eigen, and
Shoreline Entertainment, Inc., as defendants. 1 The
1

The SAA is, on its face, between Mainsail and Maron

Pictures. Maron Pictures alleged Eigen was the acting agent
and principal owner of both Mainsail and Shoreline and that
both corporations were the alter egos of Eigen. The three were
often referred to collectively in the trial court and sometimes in
the pleadings in this court. Generally, we also refer to the three
collectively; by doing so, we do not intend to imply the existence
of any relationships between or among them.

15a
trial court adjudicated the action in three separate
phases. First, it granted summary adjudication in
favor of defendants on most of Maron Pictures s
claims on the ground the claims were barred by a
one-year limitations period set out in the SAA. Then,
the court held a bench trial on two surviving
equitable claims, and found Maron Pictures had
neither established a basis for declaratory relief
based on the contractual accounting provisions nor
shown it was entitled to an equitable accounting.
Finally, the court granted defendants motion for
summary judgment on the remaining claims.
Maron Pictures claims the trial court erred in
all three phases of the adjudication of its claims.
Maron Pictures argues summary adjudication was
improper because the SAA s contractual limitations
period was in practice only a notice provision, and
even if there were a limitations period, its claims
involved periodic obligations and so remained viable
under the continuous accrual doctrine. Maron
Pictures also contends defendants should have been
equitably estopped from asserting the limitations
provision.
As to the court trial, Maron Pictures contends
the court erred in finding defendants have not
received any revenue from the film. Maron Pictures
also contends the court s final summary judgment
order must be reversed because the court abused its
discretion when it permitted Maron Pictures s

16a
counsel to withdraw and then declined to continue
the hearing on the summary judgment motion so
that Maron Pictures could retain new counsel. We
affirm the trial court s judgment.
BACKGROUND
Mark Mahon is the president and managing
member of Maron Pictures Ltd., doing business as
Maron Pictures, LLC, a single member LLC. He
wrote, produced, directed, and financed the film
Strength and Honour. Mahon was not an established
filmmaker when he made Strength and Honour and
he has claimed throughout this action that he used
his life savings to make it. The film has been shown
at film festivals worldwide and has won awards.
In April 2009, Maron Pictures entered into the
SAA with Mainsail. The SSA gave Mainsail the
exclusive right to distribute the film worldwide.
video elements to Mainsail within two weeks of the
date of the SSA. Mainsail in turn would deliver the
film and its elements to entities who would broadcast
the film, show it in theaters, or sell it in DVD format.
After signing the SSA, defendants repeatedly
notified Maron Pictures that its delivery was
incomplete. Even after defendants entered into
several licensing agreements for the film, defendants
continued to view Maron Pictures s delivery as
incomplete. Maron Pictures took the position
delivery was complete by September 17, 2009, with

17a
the exception of an errors and omissions insurance
policy it was obligated to purchase under the
agreement. Maron Pictures contends defendants
then agreed to purchase the insurance and subtract
the cost from Maron Pictures s revenues from the
film s distribution.
In January 2010, defendants released the film
in some locations. Maron Pictures believed the
violated the terms of the SAA. Primarily, Maron
Pictures believed the unauthorized items were a
breach of its agreement with one of the film s leading
actors. On January 22, 2010, after defendants failed
to respond to Maron Pictures s requests to change the
trailers, covers, and one sheets, Maron Pictures sent
to defendants, instructing
On October 6, 2010, Maron Pictures filed a
demand for arbitration, as required by the SAA.
Defendants responded by suggesting mediation. By
December 2010, the parties agreed on a mediator, but
defendants never agreed to a date for mediation. In
April 2011, Maron Pictures elected not to proceed
with arbitration rather than pay the necessary fees to
the arbitrator to get the process started. On April 21,
2011, the arbitrator closed its arbitration file.
The record does not contain information about
the parties activities between April 2011 and March
2012. Almost a year passed since the arbitration was

18a
formally abandoned. On March 20, 2012, Maron
Pictures wrote to Mainsail formally demanding an
Maron
Pictures
June
5, 2012, Maron Pictures replied that it would now
litigation
The record does not contain any information
about Maron Pictures s activities between June 5,
2012 and March 2013. On March 22, 2013, Maron
Pictures filed this lawsuit. The original complaint
asserted causes of action for declaratory relief, fraud,
rescission, breach of contract, negligent
misrepresentation, breach of fiduciary duty and for

19a
an accounting.2 After the trial court granted
summary adjudication, Maron Pictures filed a first
amended complaint which asserted causes of action
for declaratory relief, breach of contract, accounting,
and conversion.
DISCUSSION
I. Order Granting Summary Adjudication on
the Initial Complaint
Defendants moved for summary judgment on
the ground Maron Pictures s claims were barred by
the contractually agreed-upon limitations period of
one year set out in the SSA. Defendants submitted
year limitations period for bringing claims arising
2

Maron Pictures refers repeatedly to various provisions of
Federal Copyright Law (17 U.S.C. §§ 106, 106A, 122, 501, 502,
506). Maron Pictures did not mention these provisions in its
complaint, in opposition to summary judgment, or in its trial
brief. Maron Pictures did proffer a certificate of copyright
registration as an exhibit at the trial, but it was not admitted
transcript on appeal and there is nothing in the record which
shows the purpose of that exhibit. Although Maron Pictures
structed the

there is nothing in the record to support this claim.
Accordingly, Maron Pictures may not raise Federal Copyright
Law for the first time on appeal.

20a
of the claims in this lawsuit no later than October 6,
2010, when it submitted its demand for arbitration.
Maron Pictures agreed these facts were undisputed.
Defendants also stated as an undisputed fact that the
SAA s one-year limitations period expired on October
6, 2011, more than one year before the action was

filed on March 22, 2013. Maron Pictures
disputed this fact. It contended: (1) the
limitations provision in the contract was satisfied
by Maron Pictures s timely filing of a demand for
arbitration in October 2010; (2) defendants were
estopped from asserting the limitations provision
because, by suggesting mediation, they induced
Maron Pictures to end the arbitration proceedings
and postpone litigation; and (3) the continuous
accrual doctrine resulted in all claims being timely.
The trial court found (1) the limitations
provision of the SAA barred claims arising more than
one year before the complaint was filed;
(2) defendants were not estopped from asserting the
limitations provision by their offers to mediate the
dispute; and (3) the continuous accrual doctrine
permitted Maron Pictures to bring a claim based only
on defendants failure to provide an accounting
within one year prior to the filing of the action. We
consider each ruling in turn below.
A. Standard of Review for Summary
Judgment

21a
A party may move for summary judgment in
an action or proceeding if it is contended the action
has no merit or there is no defense to the action or
proceeding, or may move for summary adjudication
as to one or more causes of action within an action.
(Code Civ. Proc., § 437c, subds. (a)(1) & (f)(1).) The
motion must be accompanied by a separate statement
all material facts must be set forth in
the separate statement.
Summary Adjudication: if it is not set forth in the
separate statement, it does not exist.
(North Coast
Business Park v. Nielsen Construction Co. (1993) 17
Cal.App.4th 22, 30 31.)
Because this case comes before us after the
trial court granted a motion for summary judgment,
we take the facts from the record that was before the
We review the trial court s decision de novo,
considering all the evidence set forth in the moving
and opposing papers except that to which objections
were made and sustained.
construe the evidence in support of the party
opposing summary judgment and resolve doubts
concerning the evidence in favor of that party.
(Lonicki v. Sutter Health Central (2008) 43 Cal.4th
201, 206.)
[I]t is the appellant s responsibility to
affirmatively demonstrate error and, therefore, to
point out the triable issues the appellant claims are

22a
present by citation to the record and any supporting
authority. In other words, review is limited to issues
which have been adequately raised and briefed.
(Claudio v. Regents of the University of California
(2005) 134 Cal.App.4th 224, 230.)
B. Scope of the Contractual Limitations
Provision
In support of their contention that the oneyear period expired on October 6, 2011, defendants
relied on the SAA and the arbitration documents.
Defendants contended the filing of the arbitration
demand on October 6, 2010, showed Maron Pictures
was aware of its claims on that date, thereby starting
the one-year limitations period. Maron Pictures
commenced within one year of knowledge and that
than commenced, the one-year limita
making timely in any forum all further actions based
on the claims. Although Maron Pictures cited
documents and declarations as evidence the
expiration date was disputed, none of those items
contained any extrinsic evidence about the meaning
of the limitations period, or Maron Pictures s intent
when it agreed to the one-year limitations period set

23a
out in the SAA.3 Instead, Maron Pictures s argument
was based on the language of the provision itself.
Paragraph 17.3 of the SSA provides in full:
Licensor shall not be entitled to bring any
action, suit or proceeding of any nature against
Sales Agent or its licensees, whether at law or
in equity or otherwise, based upon or arising
from in whole or in part any claim that Sales
Agent or its licensees has in any way violated
this Agreement, unless the action is brought
within one (1) year from the date on which
Licensor knew or should have known, in the
exercise of reasonable diligence, of the facts
giving rise to this claim.
Maron Pictures contended the language to

use the broad language bring an action, suit or
proceeding when [they] could have easily specified
On appeal, Maron

3

In its separate statement of facts, Maron Pictures

pointed to the following evidence to dispute the expiration date
of October 6, 2011: Wander declaration (¶¶4, 11 14), Mahon
declaration (¶¶7-11), exhibit 3 (pp. 21, 27), exhibit 9 (p. 88), and
for some causes of action exhibit 2 (p. 7).

24a
instructions on what must occur [after filing a notice
of arbitration], or discuss the effect of withdrawal of
an arbitration demand, or in any way limit future
with the spirit of the contract because its demand
imely manner, of [Maron
Pictures s] complaints and requested a speedy, costMaron Pictures also claimed that even if
defendants interpretation of the limitations
provision were deemed reasonable, Maron Pictures s

Paragraph 19.4 of the SAA which requires any
most reasonable interpretation under the
circumstances, giving full consideration to the
intentions of the parties at the date the Agreement
The court s statement of decision on this issue
Maron Pictures] argues that the timeliness
of the 10/6/10 arbitration claim can somehow be
attrib
basis in ¶17.3 to find that the filing of the arbitration
claim on 10/6/10 somehow renders this action timely.
There is nothing in the language of ¶17.3 limiting its
application to the first action suit or proceeding filed
by [Maron Pictures], or to arbitration claims. ¶17.3

25a
applies to any action, suit or proceeding of any
nature. [Maron Pictures] fails to provide any logical
explanation for [its] claim that the arbitration claim
somehow renders this
We review the trial court s decision de novo,
and conclude the SAA does not provide that the mere
filing of a demand for arbitration, later withdrawn,
renders all subsequent actions timely.
interpreting a written instrument are well
established. The interpretation of a contract is a
judicial function. [Citation.] In engaging in this
function, the trial court give[s] effect to the mutual
intention of the parties as it existed at the time the
contract was executed. (Civ. Code, § 1636.)
Ordinarily, the objective intent of the contracting
parties is a legal question determined solely by
reference to the contract s terms. (Civ. Code, § 1639
[ [w]hen a contract is reduced to writing, the
intention of the parties is to be ascertained from the
writing alone, if possible. . . ]; Civ. Code, § 1638 [the
language of a contract is to govern its
interpretation. . .
Wolf v. Walt Disney Pictures &
Television (2008) 162 Cal.App.4th 1107, 1125 1126.)

parties in a technical sense, or unless a special
meaning is
(Civ. Code, §
1644.)
contract is to be taken

26a
together, so as to give effect to every part, if
reasonably practicable, each clause helping to
interpret
Code, § 1641.) Thus, if the
meaning a layperson would ascribe to contract
language is not ambiguous, we apply that meaning.
(Mountain Air Enterprises, LLC v. Sundowner
Towers, LLC (2017) 3 Cal.5th 744, 752.)
Paragraph 17.3 of the SAA provides at its core:
suit, or proceeding of any nature . . . based
upon . . . any claim that Sales Agent . . . violated this
Agreement, unless the action is brought within one
(1) year from the date on which Licensor knew . . . of
the facts giving rise to the
course, is the licensor, and Mainsail the sales agent.

ordinary and popular sense, which Maron Pictures
nothing more. In Maron Pictures s view, the
meaning of the phrase shows its purpose is to require
notice of a party s complaints and request for a
speedy solution. Once this initial notice is given,
Maron Pictures contends, all subsequent actions are
timely.
ordinary proceeding in a court of justice by which one
party prosecutes another for the declaration,
enforcement, or protection of a right, the redress or

27a
prevention of a wrong, or the punishment of a public
offense. (Code Civ. Proc., § 22; Mountain Air
Enterprises, LLC v. Sundowner Towers, LLC, supra,
3 Cal.5th at p. 752.) By its definition, action cannot
be equated to an arbitration that does not occur in a
also generally
Nassif v.
Municipal Court (1989) 214 Cal.App.3d 1294, 1298.)
Proceeding has
different meanings in different contexts. Narrowly, it
means an action or remedy before a court.
[Citations.] [¶] Broadly, it means All the steps or
measures adopted in the prosecution or defense of an
action. (Zellerino v. Brown (1991) 235 Cal.App.3d
proceeding or proceedings
in its general sense refers to the form and manner of
conducting judicial business before a court or judicial
officer. [Citations.] It may also refer to a mere
procedural step that is part of the larger action or
Lister v. Superior
Court (1979) 98 Cal.App.3d 64, 70.)
Building on the narrow definition set out
above, we note that arbitrations are generally not
judicial business conducted before a court or judicial
officer. Indeed, contractual arbitration is in no sense
...
(Snyder v. Superior Court (1937) 24 Cal.App.2d 263,
267; see also Brock v. Kaiser Foundation Hospitals

28a
(1992) 10 Cal.App.4th 1790, 1795.) And, paragraph
23 of the SSA under scrutiny here requires that
arbitration be conducted not by a court or judicial
4

Notwithstanding our holding under the narrow
definition, under the broad definitions set out in
Zellerino and Lister, can we find that a demand for
arbitration under the SSA is a proceeding, to wit, a
[]or measure[] adopted in the prosecution or

for in p
ent
of this Agreement is that the parties shall be able to
resolve any disputes expeditiously through binding
arbitration without risking becoming liable for the
other party s costs, legal fees, and expenses in
. The intent of

4

IFTA stands for Independent Film & Television Alliance

which administers arbitration proceedings in the entertainment
industry. Its arbitrators, who are lawyers, claim experience in
independent film and television finance, production, and
distribution. (See Hoffman & Gendron, Judicial Review of
Arbitration Awards After Cable Connection: Towards a Due
Process Model, UCLA Entertainment Law Review, 17 UCLA
Ent. L.Rev. 1, 10.) We note that paragraph 23 requires binding
arbitration. The record in this appeal suggests that the parties
waived that provision of the SSA and proceeded to litigate the
action filed in the superior court.

29a
binding arbitration is to preclude, if possible,
litigation of an action before a judicial officer. It is
not part of

the prosecution or defense of an action. It is
separate and apart, as it should be, from any
underlying or future civil action. As separate and
definition. To effectuate the intent of the SSA, we
and
Further, even if the arbitration demand
satisfied the one-year limitations period, it did not
completely erase the provision. The limitations
period of the SSA leads us to conclude that the
parties did not believe that the demand for
arbitration would leave an open-ended limitations
period. In the context of satisfying a limitations

period of time, but also to maintain that action.
Thus, if an action is timely commenced, it remains
timely as long as the action is pending. If, however,
that action is dismissed, any new action based on the
same claims is subject to the statute of limitations
that applied to the first action. (See, e.g., Thomas v.
Gilliland (2002) 95 Cal.App.4th 427.) Maron Pictures
allowed its demand for arbitration to lapse as of April
21, 2011. It did not renew its demand for arbitration
or file a civil action until March 22, 2013, about two

30a
years later. Allowing the arbitration demand to lapse
brought the parties back to their original positions
under paragraph 17.3. The claims are barred.
Finally, we must also consider the expressed
intent of the parties concerning dispute resolution, as
set forth in p
Agreement is that the parties shall be able to resolve
any disputes expeditiously through binding
arbitration
s interpretation of
the limitations provision would permit the licensor to
drag out resolution of disputes indefinitely, by filing a
notice of arbitration and dismissing, then waiting as
long as it wanted to bring another action. This is the
exact opposite of the expeditious resolution of
disputes the parties intended.
The provisions of the SAA as a whole confirm
paragraph 17.3 required Maron Pictures to bring and
maintain a civil action within one year of knowledge
of the violation on which the action is based.
C. Estoppel
Maron Pictures also disputed defendants
October 6, 2011 limitations date by stating as a fact
Defendants statements insincerely representing an
interest in participating in alternative dispute
resolution in a meaningful way. Due to [Maron
Pictures s] reliance, [Maron Pictures] delayed filing
the declarations of its President Mark Mahon and its

31a
counsel Perry Wander, and written correspondence
between the two parties as evidence of this reliance.
The relevant communications between Maron
Pictures and defendants on the topic of mediation are
brief. In October 2010, counsel for Maron Pictures
proposed a pre-arbitration settlement conference.
-binding
In December 2010, Maron Pictures
agreed to use the mediator suggested by defendants.
The parties agreed to a date of February 2 for
mediation. On January 11, 2011, however,
defendants counsel indicated he could not participate
in mediation until mid-April. Maron Pictures s
counsel replied that mid-April 2011 was too far out
t reschedule this mediation
sooner, I suspect my marching orders will be to file
suit immediately. This is not what the parties had
s counsel proposed
February 28, 2011, for the mediation date. On
January 24, 2011, defendants counsel replied they
at our disposal. [¶] As I mentioned, we will be in
There is no further
correspondence in the record between the parties

32a
discussing a date for mediation.5 Maron Pictures did
not pay the required arbitration fees, and the
arbitration file was closed on April 21, 2011.
Mark Mahon stated in his declaration that
meaningfully participating in a pre-arbitration
settlement conference and sandbagged us for two
years with misleading emails and phone
Mahon provided no details of any
communications from Eigen on this topic. Wander,
counsel for Maron Pictures, stated in his declaration
Defendants had never been
seriously interested in meaningfully participating in
any settlement conference or alternative dispute

5

On appeal, Maron Pictures contends, without citation to

attorney on some unspecified date stating Eigen would be
unavailable to participate in mediation until after May 27, 2011.
Assuming this claim is supported by the record, it does not
change our analysis. Maron Pictures does not claim that it
received any mediation-related correspondence after that date.
It is not our task to search the record for these
documents. We note that these communications were not
identified as evidence in Ma
facts or attached as exhibits to the declarations filed in support
even if we could locate them in the record, we could not consider
them. (See North Coast Business Park v. Nielsen Construction
Co., supra, 17 Cal.App.4th at pp. 30 31.)

33a
resolution and [Maron Pictures] had been
on Defendant Eigen s statements alleging an interest
in participating in a pre-arbitration settlement
conference. My reliance was reasonable as
Defendant Eigen and I, and Defendant s counsel and
I, had a good relationship prior to my realization that
they had sandbagged both my client and I.
s
misleading communications was the reason I delayed
Wander did not provide details of any
communications from defendants after January 2011.
The trial court found: [Maron Pictures] fails to
present any evidence that Defendants acted in a way
to misled [Maron Pictures] into believing that this
action would be timely or would not be barred by the
limitations period under ¶17.3 of the Distribution
Agreement. [Maron Pictures] testifies that it did

not aggressively pursue the 10/6/10 arbitration
agreement because Defendants expressed a
willingness to mediate after the arbitration claim
was filed. See Decl. of P. Wander, ¶¶ 13-19.
Between January 6 and 10, 2011, Defendants
indicated intent to proceed with ADR. Id.
Thereafter, Defendants failed to cooperate in setting
a time for ADR. [Maron Pictures s] last attempt to
schedule ADR with Defendants was in April 2011.
Id
[Maron
Pictures] was fully aware of Defendants non-

34a
responsiveness to ADR for nearly four months.
Despite this knowledge, [Maron Pictures]did not pay
the arbitration fees or did not ask for an extension.
[Maron Pictures] simply let the file close on the
arbitration. . . . [¶] . . . [T]he arbitration was closed
on 4/21/11. [Maron Pictures] had nearly six months
for [it] to either timely file a new arbitration claim or
the instant civil action. Instead, [Maron Pictures]
waited until 3/22/13, almost two years later, to file
this civil action. Again, [Maron Pictures] simply fails
to provide any logical connection between its decision
to wait until 3/22/13 to file this action and
Defendants unresponsiveness to mediation attempts
A defendant may be equitably estopped from
asserting a statutory or contractual limitations
period as a defense if the defendant s act or omission
caused the plaintiff to refrain from filing a timely suit
and the plaintiff s reliance on the defendant s conduct
was reasonable. (Lantzy v. Centex Homes (2003)
31 Cal.4th 363, 384 385 (Lantzy).) The defendant
need not intend to deceive the plaintiff to give rise to
an equitable estoppel. (Id. at p. 384.)
limitations period has run and addresses . . . the
circumstances in which a party will be estopped from
asserting the statute of limitations as a defense to an
admittedly untimely action because his conduct has
induced another into forbearing suit within the

35a
Lantzy,
supra, 31 Cal.4th at p. 383.) Thus, equitable estoppel
does not apply if the defendant s representations are
shown to be false before the limitations period
expires. (See id. at p. 384.)
Where the facts are undisputed, the existence
of an equitable estoppel is a question of law. (Platt
Pacific, Inc. v. Andelson (1993) 6 Cal.4th 307, 319
[application of equitable estoppel is ordinarily a
question of fact; however, it is properly resolved as a
nce may
reasonably be dr
After independently reviewing the record, we
conclude reliance by Maron Pictures on defendants
conduct after May 2011 was not reasonable as a
matter of law. Here, as the trial court found, it was
undisputed that, after the end of January 2011,
defendants did not cooperate in attempts to schedule
mediation. Maron Pictures s counsel twice indicated
that if mediation could not be scheduled in a timely
manner, Maron Pictures would file a lawsuit. As
noted above, in January 2011, Maron Pictures s
counsel told defendants counsel if mediation could
not be rescheduled sooner than midmy marching orders will be to file suit immediately.
Defendants counsel did not respond. On April 21,
2011, the arbitration file closed.
On April 26, 2011, Maron Pictures s counsel

36a
copied defendants counsel on an email to the
interested in mediation. His partners have finally
raised my retainer and I expect I will be filing a
lawsuit against all parties on my return from Paris
.
Defendants repeated conduct of postponing
the mediation, followed by a lack of response to
Maron Pictures s communications clearly showed
defendants representations about participating in
mediation were not sincere, and defendants had no
further intention to participate in mediation or
another form of alternate dispute resolution.
Defendants insincerity was thus apparent by the end
of January 2011, well before the contractual
limitations period expired. Equitable estoppel does
not apply as a matter of law.6
6

The application of equitable estoppel also requires a
plaintiff to proceed diligently once the truth is revealed.
(Lantzy, supra, 31 Cal.4th at p. 384.) Maron Pictures offers no
explanation for its decision to wait almost two years after its
last failed attempt to schedule mediation before filing this
action. As a matter of law, inactivity is not diligence.
Maron Pictures argues on appeal that it did not become

This issue was relevant to the accounting claim and was
considered during the court trial. For purposes of the summary
judgment motion, Maron Pictures did not dispute
statement of fact that Maron Pictures was aware of its claims
on October 6, 2010.

37a
D. Continuous Accrual
It was undisputed the SAA required
defendants to provide a periodic accounting when
certain conditions were met. It is also undisputed
defendants had never provided Maron Pictures with
such an accounting. Maron Pictures argued each
period which passed without an accounting
constituted a new breach of the SAA, and so
restarted the limitations period on all of Maron
Pictures s claims.
The trial court agreed with Maron Pictures in
triable issue of material fact as to whether ¶17.3 bars
the claims based [on] Defendants failure to provide
The court explained this
the failure to provide accounting from 3/22/12 onward
are not time barred by the 1-year limitations period
under ¶17.3.
Maron Pictures claims the court s ruling is too
narrow, and the continuous accrual doctrine should
have been applied to all of its claims dating back to

the beginning of the SAA. Maron Pictures has
misunderstood the continuous accrual doctrine,
confusing it with the limitations period under the

38a
continuing violation doctrine. 7 Under the doctrine of
may be viewed as each triggering its own limitations
period, such that a suit for relief may be partially
time-barred as to older events but timely as to those
Aryeh v.
Canon Business Solutions, Inc. (2013) 55 Cal.4th
1185, 1192 (Aryeh
violation doctrine aggregates a series of wrongs or
injuries for purposes of the statute of limitations,
treating the limitations period as accruing for all of
them upon commission or sufferance of the last of
Ibid.)
the continuing violation
doctrine . . . renders an entire course of conduct

7

Maron Pictures

appeal, but its memorandum of points and authorities in
opposition to summary judgment does not use the phrase
not
contain legal citations to either doctrine. Maron Pictures
provide an accounting constituted a new material breach of the

Aryeh, supra, 55 Cal.4th at p. 1198.) In
contrast, the continuing violation doctrin
[which] are the product of a series of small harms, any one of

Id. at pp. 1197 1198.)

39a
actionable, the theory of continuous accrual supports
recovery only for damages arising from those
Id.
at p. 1199.)
After independently reviewing the record, we
reach the same conclusion as the trial court. The
accounting obligation is a recurring one, and each
breach of that obligation has its own individual

limitations period. Breaches of the periodic
accounting obligation which occurred more than a
year before this action was filed are time-barred;
those occurring on or after that date are not.
II. Court Trial
After granting summary adjudication as to
most of Maron Pictures s claims, the trial court
Relief, as it pertains to the remaining claim for
violation of the SAA, and the Seventh Cause of
Action for Accounting are equitable claims and are
bifurcated from the remaining issues. [¶]
Accordingly, this action will be tried in the following
manner: [¶] 1. The Court will try the equitable
claims on June 27, 2016. [¶] 2. The remaining
issues, if there are any after the Court s

40a
determination of the equitable claims, will be tried
8

Following a four-day trial, the court issued a
proposed statement of decision, which states in
of [its] right to terminate the [SAA] for an alleged
breach of the defendants obligation to account to
[Maron Pictures] for revenues earned from the
distribution and sale of the film. [Maron Pictures]
also seeks an accounting for all revenues earned
under the SAA, including an accounting of monies
allegedly owed to [it] by the defendants as a result of
various distribution contracts Mainsail entered into
We consider each claim
separately.
A. The Record on Appeal Limits the Scope of
Review

A judgment or order of
the lower court is presumed correct. All
8

On June 27, 2016, the court trial began, in a different

summary judgment was heard. The minute order states:
g clarification of the trial
issues as to Phase I of the trial that this Court will hear this

conference in the record. The record shows the court did try the
two equitable claims, and found there were no issues remaining
after that trial.

41a

intendments and presumptions are indulged to
support it on matters as to which the record is silent,
and error must be affirmatively shown. This is not
only a general principle of appellate practice but an
ingredient of the constitutional doctrine of reversible
error.
Denham v. Superior Court (1970) 2 Cal.3d
557, 564.) It is the appellant s burden on appeal to
which overcomes the presumption
of validity favoring [the] judgment.
Webman v.
Little Co. of Mary Hospital (1995) 39 Cal.App.4th
592, 595.)
Maron Pictures has elected to proceed on
appeal without a reporter s transcript. The
has special significance
when . . . the appeal is based upon the clerk s
transcript. [Citation.] It is elementary and
fundamental that on a clerk s transcript appeal the
appellate court must conclusively presume that the
evidence is ample to sustain the findings . . . .
(National Secretarial Service, Inc. v. Froehlich (1989)
210 Cal.App.3d 510, 521-522.) Our review is limited

42a
face of the
Id. at p. 521; see Cal. Rules of
9
Court, rule 8.163.)
Unless an error appears on the face of the
record, an appellant
[f]ailure to provide an
adequate record on an issue requires that the issue
be resolved against [appellant].
Foust v. San Jose
Construction Co., Inc. (2011) 198 Cal.App.4th 181,
187; see Wagner v. Wagner (2008) 162 Cal.App.4th
actually occurred at the hearing precludes a
determination that the court abused its discreti
.)
B. Declaratory Relief - Contractual Accounting
Obligation
Maron Pictures s declaratory relief claim was
based on defendants admitted failure to provide
Maron Pictures with periodic accounting statements
showing revenue generated by the film; Maron
Pictures alleged the SAA required such statements.
Maron Pictures sought a declaration that Mainsail s
breach of its obligation entitled Maron Pictures to
terminate or rescind the SAA.
obligated Mainsail to provide Maron Pictures with
9

California Rules of Court, r

reviewing court will presume that the record in an appeal
includes all matters material to deciding the issues raised. If
presumption applies only if the claimed error appears on the

43a
statements of Gross Proceeds only after delivery was
delivered some but not all of the items required by
the delivery Schedule. It is simply not disputed
Maron Pictures could not, and did not, make
complete delivery as required by the Delivery
Schedule. [Testimony of Mark Mahon and Sam
Eigen.] However, Maron Pictures was able to deliver
sufficient materials for Mainsail to begin licensing
activities and, in fact, license the film in various
The court also found Mainsail stopped all
cease and
desist letter from Maron Pictures on January [22],
2010. [Exh. 254.] As of March 12, 2010, Mainsail
had received $224,541 in Minimum Guarantees from
its licensing activities, and had earned Gross
Proceeds of $123,671. [Exh. 269-M00120.] The film
was still being shown in some countries during the
years 2014 through 2016. [Exh. 316.] However,
Mainsail introduced evidence that it had received no
funds related to the film during those years or since
calendar year 2010. [Exhs. 205, 206, 207, 208, 209,
accounting statements provided for by Paragraph
12.2 of the SAA were ever given to Maron Pictures,
nor has Maron Pictures received any revenue from
[M]ainsail as a result of the licensing revenue it did

44a
declaratory relief, [Maron Pictures] needs to show
that there is some uncertainty with respect to the
parties obligation under the SAA that requires the
Court to resolve. Here, Maron Pictures makes no
such claim. Instead, it asks the court to determine
that Mainsail failed to provide required accountings,
so that Maron Pictures may terminate the SAA
under the provisions of Paragraph 18.1. However,
the Court may not rewrite the parties agreement.
[Culbertson v. Cizek (1964) 225 Cal.App.2d 451.]
violated
the SAA hinges on its claim that it, in fact, made
complete Delivery within the meaning of Paragraph
12.2. Maron Pictures failed to prove that critical fact.
The Court finds that Maron Pictures has failed to
establish by a [preponderance] of the evidence that
Mainsail violated the terms of the SAA. Accordingly,
Maron Pictures had not established a basis for the
Maron Pictures contends substantial evidence
does not support the trial court s finding it never
completed delivery. Maron Pictures elected to
proceed without a reporter s transcript of the trial
and so we conclusively presume there is substantial
evidence to support the trial court s findings. This
presumption is particularly appropriate here, where
the trial court expressly relied on the trial testimony
of Sam Eigen and Mark Mahon, testimony that is not

45a
part of the record on appeal due to the absence of a
reporter s transcript.
Nevertheless, the result would be the same if
we set aside the presumption and looked at the trial
exhibits in the record.10 Although there is
disagreement and confusion on appeal about the
10

Although the parties designated the trial exhibits as
part of the record on appeal, the clerk of the superior court was
unable to include those exhibits. The parties filed motions to
augment pursuant to California Rules of Court, rule 8.841,
which permits the parties to file a motion to augment under
such circumstances. We grant def
the record with documents they declare are the missing trial
exhibits. Maron Pictures does not dispute the accuracy of

record with (1) a copy of the original complaint in this matter,
attached to the Mahon declaration as exhibit 2 and (2) a copy of
trial exhibit 329, attached to the Mahon Declaration as exhibit
augment. trial exhibits 254, 327, 331, 333 and 338 have been
states that the documents attached to his declaration as exhibit
do not show that any exhibit numbered 200 was introduced and
marked for identification at trial. The remaining trial exhibits
attached to the Mahon declaration appear to have been marked
and introduced at trial, but not admitted into evidence. We note
into evidence; Maron
-marked exhibit 269 was not admitted

no relevance on
appeal.

46a
exhibits offered and admitted at the court trial, a
series of emails sent from various employees of
defendants and from Eigen, repeatedly state Maron
Pictures has not delivered items on the delivery
schedule. In responsive emails, Maron Pictures
disputes some of these claims, but not all. It is, for
example, undisputed that Maron Pictures failed to
provide errors and omissions insurance. Maron
Pictures presented to the contrary. In the absence of
a reporter s transcript, there is nothing to show
Maron Pictures raised the issue of substantial
compliance in the trial court, and we treat the issue
as forfeited.
Even if we considered Maron Pictures s claim
of substantial compliance, Maron Pictures would not
prevail. While it is undisputed Maron Pictures
delivered enough items to enable defendants to
license the film and earn revenue from the licensing,
it was not clear error on the face of the record for the
court to find nondelivery.
The extent of Maron Pictures s compliance
cannot be determined from the face of the record on
appeal.11 Defendants ability to satisfy the
requirements of some distributors in the absence of

11

Paragraph 15.4.1 of the SAA gives the sales agent the

right to furnish any undelivered items and to recover the costs
from licensor. There is evidence that defendants did so, at least
in part.

47a
complete delivery by Maron Pictures does not show
defendants were able to satisfy the requirements of
all distributors, or even most distributors. To the
contrary, it is clear defendants were not able to meet
the requirements of key distributors. For example, in
a November 28, 2009 email from Eigen to Maron
to do a theatrical release due to Maron Pictures s late
delivery of required elements.
Maron Pictures also contends the court s ruling
is wrong because the law abhors a forfeiture. It is
not entirely clear what Maron Pictures believes has
been forfeited. The trial court s ruling resulted in
Maron Pictures having no contractual right to receive
periodic accounting statements from defendants.
Maron Pictures still has a contractual right to obtain
financial information from defendants. Paragraph
12.1 of the SAA requires defendants to keep books
and records using generally accepted accounting
procedures; the duty is not contingent on Maron
Pictures s completion of delivery. Paragraph 12.7
permits Maron Pictures to audit those books once a
year; this right is not conditioned on delivery
completion. Thus, the trial court ruling did not result
in Maron Pictures having no access to financial
information about its film s licensing, it merely
shifted the cost and initiative from defendants to
Maron Pictures.

48a
To the extent Maron Pictures contends the
court s ruling means it lost all rights to the film
forever, Maron Pictures is mistaken. The trial court
simply found that the specific breach of contract
posited by Maron Pictures as a basis for terminating
the SAA did not occur and therefore Maron Pictures
had no right to terminate the SAA on that basis.
C. Equitable Accounting
Maron Pictures s second claim was for an
equitable accounting. The court found Maron
Pictures s claims were limited to revenues received
by defendants after March 22, 2012. The court found
Maron Pictures had failed to produce any evidence
showing defendants received any licensing revenue
related to Maron Pictures s film after March 2010.
establish that it is entitled to any accounting from
In its reply brief, Maron Pictures contends the
trial court erred in finding it was not entitled to an
accounting because it failed to show the film
generated any revenues.12 Maron Pictures points out
the SAA calls for accounting statements even when
there is no revenue. The trial court made this finding

12

Although Courts of Appeal do not usually consider

Maron Pictures makes this argument in response to contentions

49a
as part of the equitable indemnity claim, not the
breach of contract claim.
A plaintiff bringing a cause of action for an
equitable accounting has the burden of showing
Teselle v.
McLoughlin (2009) 173 Cal.App.4th 156, 179.) Thus,
the trial court did not err in placing the burden on
Maron Pictures to show a balance was due. We
conclusively presume there is substantial evidence to
support the trial court s finding that Maron Pictures
did not meet that burden.
The result would be the same, however, if we
set aside the presumption and looked at the
documentary evidence in the record. Here, it was
undisputed Maron Pictures sent defendants a cease
and desist letter in January 2010. An accounting
statement shows that as of March 2010, gross
proceeds had been earned under several of the
distribution agreements which were entered into
before the cease and desist letter; that statement also
shows none of these proceeds were payable to Maron
Pictures. Defendants produced evidence they had not
received any funds related to Maron Pictures s film
since 2010.
Maron Pictures points to evidence its film was
shown in Europe during the years 2014 to 2016, and
contends defendants must have earned revenue from
those showings. We must treat this as a claim that

50a
there is clear error on the face of the record. We do
not see such error. Although Maron Pictures offered
several exhibits which it contends list showings of its
film since 2010 (exhibits 316 and 318-322), only one
page of exhibit 316 was admitted into evidence.
Exhibit 316, cited by the trial court, shows 13
showings on Turner Classic Movies (TCM) in Europe
from 2014 to 2016. It is not clear from the record on
appeal whether defendants had any agreement with
TCM, the channel which showed Maron Pictures s
film: none of the licensing agreements in the record
refers to TCM or appears to cover Europe. There is
no evidence in the record to support even an
inference that defendants must have received
revenue from those showings, and thus nothing to
show clear error in the trial court s findings.13

13

Further, the distribution agreements in the record

contain provisions for guaranteed minimum revenue which
required payment no later than when the film was delivered to
the distributors. Revenue received by a distributor from any
particular showing of the film could have been retained by the
distributor as an offset against the guaranteed minimum
payment made to Mainsail in 2009 or 2010.

51a
III. Motion for Summary Judgment on the
First Amended Complaint
Maron Pictures contends the trial court should
not have granted counsel s motion to withdraw from
the case before Maron Pictures had time to find a
new attorney and should not have denied Maron
Pictures s informal request for a continuance of
defendants motion for summary judgment. Maron
Pictures claims it was unable to find substitute
counsel in time to oppose the motion for summary
judgment, and the trial court s grant of the motion
was therefore improper.
We review an order granting a withdrawal
motion for an abuse of discretion. (Manfredi &
Levine v. Superior Court (1998) 66 Cal.App.4th 1128,
1133; Mandell v. Superior Court (1977)
67 Cal.App.3d 1, 4.) We see no abuse of discretion in
the court s ruling.
Wander, Maron Pictures s counsel, moved to be
relieved, alleging there had been a complete
breakdown of the attorney-client relationship. His
declaration filed in support of the motion shows such
a breakdown. Wander declared Mahon had
statement of decision on July 7, 2016, and also after
Wander advised Mahon to settle. Wander also
referred to a July 18, 2016 communication sent
directly from Mahon to the trial court, which
consisted of a letter, a proposed statement of decision

52a
and a copy of the Strength and Honour DVD. There
Wander believed it was not
in the interest of either the client or the attorney to
continue such a relationship.
Maron Pictures contends the trial court should
nonetheless have required Wander to continue his
representation until Maron Pictures found another
attorney, because a corporation may not represent
itself. Maron Pictures is mistaken.
-representation does
not prevent a court from granting a motion to
withdraw as attorney of record, even if it leaves the
corporation without representation. Such an order
puts pressure on the corporation to obtain new
counsel, or risk forfeiting important rights through
nonrepresentation. (Ferruzzo v. Superior Court
(Gamet v.
Blanchard (2001) 91 Cal.App.4th 1276, 1284, fn. 5.)
Here, Wander mailed a copy of the motion to
withdraw to Maron Pictures at the address in Ireland

On September 7, 2016, Wander filed a substitution of
attorney form that showed Maron Pictures
representing itself. The document shows someone
signed the document on behalf of Maron Pictures and
consented to the substitution.
On September 14, 2016, the court denied
Wander s motion to be relieved as counsel, on the

53a
ground the moving papers did not demonstrate
proper service on the client, a foreign national.
Wander was ordered to either show proper proof of
service on the client or provide a substitution of
counsel statement that identified new counsel for
Maron Pictures. The court noted Maron Pictures
could not represent itself.
On October 21, 2016, the trial court granted
Wander s motion to be relieved. Mahon was present
in court, and the court advised him it is unlawful for
a business entity to make appearances without an
attorney. Maron Pictures had more than a month to
obtain counsel before the October 21 hearing, but did
not do so. We recognize Mahon, Maron Pictures s
representative, lived in Ireland, but he would still
have been able to search for lawyers in California.
Thus, putting some pressure on Maron Pictures to
find new counsel was appropriate.
After granting Wander s motion to withdraw,
the court also stated defendants motion for summary
judgment would remain set for December 9, 2016.
Maron Pictures claims the court should have granted
his informal request for a continuance beyond
December 9.
We review a trial court s denial of a request for
a continuance of a motion for summary judgment for
an abuse of discretion. (Cooksey v. Alexakis (2004)
123 Cal.App.4th 246, 254.)

54a
Maron Pictures had another six weeks to
obtain counsel before the December 9 hearing. Even
assuming for the sake of argument that a new
attorney could not have prepared an adequate
opposition to the summary judgment motion in that
time frame, a newly retained attorney could have
formally requested a continuance of the summary
judgment motion. By December 9, Maron Pictures
had not obtained an attorney for even the limited
purpose of making a formal request for a
continuance.
Moreover, Maron Pictures has not shown it
suffered prejudice from the denial of the continuance.
Maron Pictures has not shown it had a viable basis
for opposing the summary judgment motion. Maron
Pictures argues it could have raised federal copyright
claims in response to the motion. Raising a claim
under Federal Copyright Law would, at a minimum,
have required amending its complaint, and it is
highly unlikely such an amendment would have been
permitted at such a late date. Maron Pictures also
argues it could have presented evidence the film was
still being commercially exploited around the globe.
Maron Pictures had already lost on that issue at the
court trial.
The trial court did not abuse its discretion in
permitting Wander to withdraw as counsel or in
denying Maron Pictures s informal request for a
continuance. Maron Pictures did not obtain counsel

55a
in the more than two months between the filing of
Wander motion to withdraw and the hearing on
defendants summary judgment motion, and has
offered no explanation other than Mahon s residence
in Ireland to explain this failure. The trial court did
not err in granting defendants unopposed motion for
summary judgment.
DISPOSITION
The judgment is affirmed. Respondents are
awarded costs on appeal.

STRATTON, J.
We concur:
BIGELOW, P. J.
GRIMES, J.

56a

APPENDIX G

57a

SUPERIOR COURT OF THE STATE OF
CALIFORNIA
COUNTY OF LOS ANGELES

MARON PICTURES LLC., CASE NO. SC120432
Plaintiff,

Hon. Chester Horn Jr.
Dept. WE-I

v.
JUDGMENT
SAM EIGEN, AN
INDIVIDUAL, MAINSAIL
ENTERTAINMENT, INC.,
SHORELINE
ENTERTAINMENT, INC.,
AND DOES 1-20,
Defendants.

This action came before the Court on
Motion
for Summary Judgment or in the Alternative,
Defendants Mainsail, LLC (erroneously sued herein
as Mainsail Entertainment, Inc.), Shoreline
Entertainment, Inc., and Sam Eigen appeared
through their counsel Richard L. Charnley of

58a
Charnley Rian LLP. Plaintiff was not represented by
counsel.
to all claims and finding that Defendants are entitled
to judgment as a matter of law on all claims in
HEREFORE IT IS
ORDERED, ADJUDGED AND DECREED:
That Plaintiff shall take nothing by way of its
complaint, that JUDGMENT is granted in favor of
Mainsail, LLC, Shoreline Entertainment, Inc., Sam
that and Defendants, if appropriate, shall have and
recover their attorney fees and costs of suit against
Plaintiff, in support of which Defendants shall file a
Memorandum of Costs and appropriate post-trial
motions.

December 9, 2016

H. CHESTER HORN, JR
Hon. Chester Horn, Jr.,
Judge Superior Court

59a

APPENDIX H

60a
SUPERIOR COURT OF CALIFORNIA, COUNTY
OF LOS ANGELES
DATE: 02/10/16
HONORABLE LISA
8:30 am SC120432

HART COLE
Plaintiff
Counsel PERRY WANDER

MARON PICTURES
VS
SAM EIGEN ET. AL. Defendant
Counsel RICHARD CHARNLEY
*RECUSAL BY JUDGE C. KARLEN
PLTF. 170.6 BECKLOFF

NATURE OF PROCEEDINGS:
DEFENDANTS SAM EIGEN, MAINSAIL
ENTERTAINMENT INC. AND SHORELINE
ENTERTAINMENT INC. MOTION FOR SUMMARY
JUDGMENT OR IN THE ALTERNATIVE
SUMMARY ADJUDICATION AS TO THE FIRST,
SECOND, THIRD, FOURTH, FIFTH, SIXTH, AND
SEVENTH CAUSES OF ACTION;
Matter is called for hearing.

DENIED.
ry Adjudication is

61a
SUPERIOR COURT OF CALIFORNIA, COUNTY
OF LOS ANGELES
DATE: 02/10/16
HONORABLE LISA
8:30 am SC120432

HART COLE
Plaintiff
Counsel PERRY WANDER

MARON PICTURES
VS
SAM EIGEN ET. AL. Defendant
Counsel RICHARD CHARNLEY
*RECUSAL BY JUDGE C. KARLEN
PLTF. 170.6 BECKLOFF

based on breaches of ¶¶3.1, 5.1, 7.11, 8 and 17.1 are
time barred. Adjudication is granted as to those
claims.
ANALYSIS: Defendants move for summary judgment
-barred
under 1-year limitations period set forth under ¶17.3
greement. ¶17.3 states:
suit or proceeding of any nature against [Defendant
Mainsail] or its licensees, whether at law or in equity
or otherwise, based upon or arising from in whole or
in part any claim that [Defendant Mainsail] or its
licensees has in any way violated this Agreement,
unless the action is brought within one (1) year from
the date on which [Plaintiff] knew or should have
known, in the exercise of reasonable diligence, of the
facts givin

62a
SUPERIOR COURT OF CALIFORNIA, COUNTY
OF LOS ANGELES
DATE: 02/10/16
HONORABLE LISA
8:30 am SC120432

HART COLE
Plaintiff
Counsel PERRY WANDER

MARON PICTURES
VS
SAM EIGEN ET. AL. Defendant
Counsel RICHARD CHARNLEY
*RECUSAL BY JUDGE C. KARLEN
PLTF. 170.6 BECKLOFF

filed on 10/6/10 with the Independent Film &
Television Alliance, which alleged the same claims
UMF No. 2.
Plaintiff failed to follow through with this arbitration
claim when it did not pay the arbitration fees or seek
a further extension of time. Id.at No. 5. Based on
these facts, Defendant argues Plaintiff clearly knew
of its claims as of 10/6/10 and Plaintiff had to bring
any legal action within a year of that date, 10/6/11.
In response, Plaintiff does not dispute that 1-year
limitations period is valid, that the 10/6/10
arbitration claim alleged the exact same claims here
or that Plaintiff failed to pursue the arbitration,
which was dismissed on 4/21/11.
Response to SSUMF Nos.1 and 2. Instead, Plaintiff
argues that the timeliness of the 10/6/10

63a
SUPERIOR COURT OF CALIFORNIA, COUNTY
OF LOS ANGELES
DATE: 02/10/16
HONORABLE LISA
8:30 am SC120432

HART COLE
Plaintiff
Counsel PERRY WANDER

MARON PICTURES
VS
SAM EIGEN ET. AL. Defendant
Counsel RICHARD CHARNLEY
*RECUSAL BY JUDGE C. KARLEN
PLTF. 170.6 BECKLOFF

arbitration claim can somehow be attributed this civil
action. Plaintiff also contends that Defendants are
equitably stopped from asserting statute of
limitations because they led Plaintiff to believe
during the prior arbitration that the matter would be
Plaintiff
did not pursue the arbitration or a civil action within
the limitations period. Plaintiff also contends that
even if the action is largely barred, the accounting
action survives based on the continuing obligation of
Defendant to provide an accounting and Plaintiff last
served Defendant with a demand for accounting in
March 2012, when it did not receive the February
2012 accounting.
Based on these undisputed facts, the action is time
barred. There is no dispute over the validity of the 1year limitations period and it is clear from the

64a
SUPERIOR COURT OF CALIFORNIA, COUNTY
OF LOS ANGELES
DATE: 02/10/16
HONORABLE LISA
8:30 am SC120432

HART COLE
Plaintiff
Counsel PERRY WANDER

MARON PICTURES
VS
SAM EIGEN ET. AL. Defendant
Counsel RICHARD CHARNLEY
*RECUSAL BY JUDGE C. KARLEN
PLTF. 170.6 BECKLOFF

10/6/10 arbitration claim that Plaintiff knew of the
claims pled in this civil action. As such, Plaintiff had
to file this lawsuit within 1-year of that date.
Plaintiff waited until 3/22/13, approximately 2 ½
years later.
There is simply no basis in ¶17.3 to find that the
filing of the arbitration claim on 10/6/10 somehow
renders this action timely. There is nothing in the
language of ¶17.3 limiting its application to the

any logical explanation for his claim that the
arbitration claim somehow renders this action timely.

order to invoke the doctrine of equitable estoppel, (1)
the party to be estopped must be apprised of the facts

65a
SUPERIOR COURT OF CALIFORNIA, COUNTY
OF LOS ANGELES
DATE: 02/10/16
HONORABLE LISA
8:30 am SC120432

HART COLE
Plaintiff
Counsel PERRY WANDER

MARON PICTURES
VS
SAM EIGEN ET. AL. Defendant
Counsel RICHARD CHARNLEY
*RECUSAL BY JUDGE C. KARLEN
PLTF. 170.6 BECKLOFF

; (2) he must intend that his conduct shall be acted
upon, or must so act that the party asserting the
estoppel had a right to believe it was so intended; (3)
the other party must be ignorant of the true state of
facts; and (4) he must rely upon the conduct to his
s v. S.S. Kresge Co. (1984) 150
Cal.App.3d 491, 499.
Plaintiff fails to present any evidence that
believing that this action would be timely, or would
not be barred by the limitations period under ¶17.3 of
the Distribution Agreement. Plaintiff testifies that it
did not aggressively pursue the 10/6/10 arbitration
agreement, because Defendants expressed a
willingness to mediate after the arbitration claim
was filed. See Decl. of P. Wander, ¶¶13-19. Between
January 6 and 10, 2011, Defendants indicated intent

66a
SUPERIOR COURT OF CALIFORNIA, COUNTY
OF LOS ANGELES
DATE: 02/10/16
HONORABLE LISA
8:30 am SC120432

HART COLE
Plaintiff
Counsel PERRY WANDER

MARON PICTURES
VS
SAM EIGEN ET. AL. Defendant
Counsel RICHARD CHARNLEY
*RECUSAL BY JUDGE C. KARLEN
PLTF. 170.6 BECKLOFF

to proceed with ADR. Id. Thereafter, Defendants
failed to cooperate in setting a time for ADR.
Defendants was in April 2011. Id.
None of these facts establish that Defendants misled
Plaintiff into believing that a civil action by Plaintiff
was not subject to the 1-year limitations period. None
pursue the arbitra
conduct, nor would such detrimental reliance have
been reasonable. The arbitrator had contacted
Plaintiff several times about the failure to pay fees,
responsiveness to ADR for nearly four months.
Despite this knowledge, Plaintiff did not pay the
arbitration fees or did not ask for an extension.
Plaintiff simply let the file close on the arbitration.

67a
SUPERIOR COURT OF CALIFORNIA, COUNTY
OF LOS ANGELES
DATE: 02/10/16
HONORABLE LISA
8:30 am SC120432

HART COLE
Plaintiff
Counsel PERRY WANDER

MARON PICTURES
VS
SAM EIGEN ET. AL. Defendant
Counsel RICHARD CHARNLEY
*RECUSAL BY JUDGE C. KARLEN
PLTF. 170.6 BECKLOFF

More importantly, the arbitration was closed on
4/21/11. Plaintiff had nearly six months for Plaintiff
to either timely refile a new arbitration claim or the
instant civil action. Instead, Plaintiff waited until
3/22/13, almost two years later, to file this civil
action. Again, Plaintiff simply fails to provide any
logical connection between its decision to wait until
unresponsiveness to mediation attempts between
January and April 2011.
Certainly, there is no inequitable conduct established
against Defendants akin to that in Griffis. In Griffis,
the court found that defense counsel could not assert
statute of limitations he affirmatively stated at one
limitations period was correct despite constructive

68a
SUPERIOR COURT OF CALIFORNIA, COUNTY
OF LOS ANGELES
DATE: 02/10/16
HONORABLE LISA
8:30 am SC120432

HART COLE
Plaintiff
Counsel PERRY WANDER

MARON PICTURES
VS
SAM EIGEN ET. AL. Defendant
Counsel RICHARD CHARNLEY
*RECUSAL BY JUDGE C. KARLEN
PLTF. 170.6 BECKLOFF

At
best, this response negligently withheld from the
court the vital information that the matter had been
ordered to arbitration on a date substantially later
than that relied upon by Attorney Grasse; at worst,
the response was an overtly false statement, for
Attorney Slavin did have, or should have known he
Griffis, supra, 150 Cal.App.3d at 500.
However, Plaintiff raises a triable issues of material
fact as to whether ¶17.3 bars the claims based
Defe
Plaintiff contends that because Defendants had
periodic obligations to provide accountings, the
limitations period began to run on each periodic

69a
SUPERIOR COURT OF CALIFORNIA, COUNTY
OF LOS ANGELES
DATE: 02/10/16
HONORABLE LISA
8:30 am SC120432

HART COLE
Plaintiff
Counsel PERRY WANDER

MARON PICTURES
VS
SAM EIGEN ET. AL. Defendant
Counsel RICHARD CHARNLEY
*RECUSAL BY JUDGE C. KARLEN
PLTF. 170.6 BECKLOFF

failure to comply with these obligations as the
the contractual obligation to provide accountings to
an installment contract.

severed into intervals, as in installment contracts,
the courts have found that an action attacking the
performance for any particular interval must be
brought within the period of limitations after the
Petroleum Corp. v. Tri-Valley Oil & Gas Co. (2004)
116 Cal.App.4th 1375, 1388continuing that is, periodic accrual for periodic
breach is to be distinguished from that of a single
breach or other wrong which has continuing impact.
It also is to distinguished from the breach of an
entire contract, though performance of that contract

70a
SUPERIOR COURT OF CALIFORNIA, COUNTY
OF LOS ANGELES
DATE: 02/10/16
HONORABLE LISA
8:30 am SC120432

HART COLE
Plaintiff
Counsel PERRY WANDER

MARON PICTURES
VS
SAM EIGEN ET. AL. Defendant
Counsel RICHARD CHARNLEY
*RECUSAL BY JUDGE C. KARLEN
PLTF. 170.6 BECKLOFF

may involve the rendering of benefits to the plaintiff
before the date for final performance. If the parties to
its making intend an entire contract, not a severable
one, the courts will not find it divisible despite
revealed by the nature and character of the
agreement. Intent can further be shown by the
389.

Gross Proceeds and all deductions therefrom twice a
year, no more than 45 business days after the periods
ending June 30th and December 31st. In the event
there have been no Gross Proceeds since the previous
statement, [Defendants] shall remit the next
statement no later than on or about the anniversary
date of the previous statement. Statements shall be
provided to Licensor from the time Delivery is

71a
SUPERIOR COURT OF CALIFORNIA, COUNTY
OF LOS ANGELES
DATE: 02/10/16
HONORABLE LISA
8:30 am SC120432

HART COLE
Plaintiff
Counsel PERRY WANDER

MARON PICTURES
VS
SAM EIGEN ET. AL. Defendant
Counsel RICHARD CHARNLEY
*RECUSAL BY JUDGE C. KARLEN
PLTF. 170.6 BECKLOFF

complete adnf [sic] or as long as this Agreement is in
the agreement is 15 years from the date of execution,
which is from 4/20/09 through 4/20/14. Id. at Section
C.
Plaintiff presents evidence that Defendants have
breached their obligation to provide accountings
within a year of filing this action. See Decl. of M.
Mahon, ¶¶11, 19email wherein Defendants state they are no longer in
a business relationship with Plaintiff and apparently
asserting they were under no obligation to further
perform under the Distribution Agreement. Id. at ¶20
and any claims based on the failure to provide
accounting from 3/22/12 onward are not time barred
by the 1-year limitations period under ¶17.3.

72a
SUPERIOR COURT OF CALIFORNIA, COUNTY
OF LOS ANGELES
DATE: 02/10/16
HONORABLE LISA
8:30 am SC120432

HART COLE
Plaintiff
Counsel PERRY WANDER

MARON PICTURES
VS
SAM EIGEN ET. AL. Defendant
Counsel RICHARD CHARNLEY
*RECUSAL BY JUDGE C. KARLEN
PLTF. 170.6 BECKLOFF

the failure to provide accountings, summary
judgment cannot be granted. Summary judgment is
only proper where there are no triable issues of
material fact remaining as to the entire action.

adjudication is GRANTED. For purposes of summary
adjudication, separate and distinct wrongful acts give
rise to separate causes of action, regardless of the
manner of the pleading. A party may move for
summary adjudication challenging a separate and
distinct wrongful act, even if that act is combined
with other wrongful acts alleged in the same pleaded
Lilienthal & Fowler v.
Superior Court (1993) 12 Cal.App.4th 1848, 1851,
1853. Likewise, affirmative defenses that would

73a
SUPERIOR COURT OF CALIFORNIA, COUNTY
OF LOS ANGELES
DATE: 02/10/16
HONORABLE LISA
8:30 am SC120432

HART COLE
Plaintiff
Counsel PERRY WANDER

MARON PICTURES
VS
SAM EIGEN ET. AL. Defendant
Counsel RICHARD CHARNLEY
*RECUSAL BY JUDGE C. KARLEN
PLTF. 170.6 BECKLOFF

distinct wrongful act are properly adjudicated. See
Edward Fineman Co. v. Supr. Ct. (1998) 66
Cal.App.4th 1110, 1116. Here, the undisputed facts
¶¶3.1, 5.1, 7.11, 8 and 17.1 are time barred.
Adjudication is granted as to those claims. Thus, the

